<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                         [H.A.S.C. No. 110-136]



                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

 BUDGET REQUEST FROM THE U.S. EUROPEAN COMMAND, SOUTHERN COMMAND, AND 
                             AFRICA COMMAND

                               __________

                              HEARING HELD

                             MARCH 13, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                   HOUSE COMMITTEE ON ARMED SERVICES


                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida

                    Erin C. Conaton, Staff Director
                 Andrew Hyde, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, March 13, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request from the U.S. European 
  Command, Southern Command, and Africa Command..................     1

Appendix:

Thursday, March 13, 2008.........................................    41
                              ----------                              

                        THURSDAY, MARCH 13, 2008
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
  FROM THE U.S. EUROPEAN COMMAND, SOUTHERN COMMAND, AND AFRICA COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Saxton, Hon. Jim, a Representative from New Jersey, Committee on 
  Armed Services.................................................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Craddock, Gen. Bantz J., USA, Commander, U.S. European Command...     4
Stavridis, Adm. James G., USN, Commander, U.S. Southern Command..     6
Ward, Gen. William E., USA, Commander, U.S. Africa Command.......     7

                                APPENDIX

Prepared Statements:

    Craddock, Gen. Bantz J.......................................    45
    Stavridis, Adm. James G......................................    97
    Ward, Gen. William E.........................................   131

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Cummings.................................................   155
    Mr. Skelton..................................................   155
    Mr. Taylor...................................................   155

Questions Submitted by Members Post Hearing:

    Mrs. Boyda...................................................   159
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
  FROM THE U.S. EUROPEAN COMMAND, SOUTHERN COMMAND, AND AFRICA COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, March 13, 2008.
    The committee met, pursuant to call, at 1:17 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good day.
    The committee will come to order.
    We will address the posture of three commands representing 
significant geographic diversity: the U.S. European Command 
(EUCOM), the U.S. Southern Command (SOUTHCOM) and the new 
Africa Command (AFRICOM). Our witnesses are General John 
Craddock, Admiral James Stavridis and General Kip Ward.
    It is great to have each of you here, and we thank you each 
for the work that you do as well as for the young men and young 
women within your command.
    General Craddock, I remain deeply concerned about our 
efforts in Afghanistan. There has been a great deal of 
discussion about the North Atlantic Treaty Organization's 
(NATO) ability to lead the fight there, hampered in part by the 
caveats that many of our NATO allies have placed on their 
troops.
    Recently you said, ``These caveats, like shortfalls, 
increase the risk to every soldier, sailor, airman and marine 
employed in theatre.''
    General, I couldn't agree with you more. I am seriously 
concerned about these caveats and NATO's unfulfilled 
commitments.
    I also believe the United States can and must demonstrate 
better leadership in Afghanistan. We are deploying an 
additional 3,400 marines to shore up the fight in the south and 
train and equip the Afghan national security forces. But when 
our military and civilian leadership says that in Afghanistan 
we do what we can, rather than do what we must, I think that 
sends a strong signal to Europe that we ourselves are not 
completely committed to a successful outcome. And I would have 
you address that.
    General Ward, Admiral Stavridis, our committee has given a 
great deal of thought recently to your roles in the missions of 
the armed forces, and the weakness in the interagency system 
and note that both of you in your commands are undertaking 
groundbreaking work to integrate the interagency partners. I 
commend you for that. And I hope we will hear something more 
from each of you on that.
    Combatant commands, particularly SOUTHCOM, have excelled in 
providing short-term humanitarian emergency assistance after 
natural disasters. I am interested in the example that SOUTHCOM 
and emerging AFRICOM are placing on the promotion of internal 
security, trade, and economic prosperity within your areas of 
responsibility.
    Let me say a word about strategic risks. Our attention is 
so focused on Iraq, we are hard-pressed to devote the necessary 
attention to emerging security issues in other parts of the 
world. Within the last month, we saw a serious effort to topple 
the government of Chad and a brief but potentially serious 
border dispute between Colombia, Ecuador, and Venezuela. We 
must re-balance our military to be prepared for these sorts of 
unexpected challenges in the event that they turn into truly 
serious contingencies.
    Before I recognize any of you gentlemen for your testimony, 
I ask my friend serving as ranking member today, Jim Saxton, 
the gentleman from New Jersey, for any statement.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
                  COMMITTEE ON ARMED SERVICES

    Mr. Saxton. Mr. Chairman, thank you very much.
    Today this committee will consider the challenges and 
opportunities that face the U.S. European Command, the U.S. 
Southern Command and the newly-formed U.S. Africa Command. 
These combined areas of responsibility of these commands 
include over 120 countries and cover almost 40 million square 
miles. In fact, the range of possible topics today is broad as 
it reaches throughout these commands.
    I would like to thank General Craddock, Admiral Stavridis 
and General Ward for appearing before us today to provide their 
unique insights and assessments and to explain how the 
President's fiscal year 2009 budget request reflects these 
operations, exercises and initiatives within their respective 
Areas of Responsibility (AORs).
    General Craddock, I would like to begin by highlighting a 
concern that Ranking Member Hunter has, who of course regrets 
that he is not able to be with us today. He discussed it at the 
U.S. Central Command (CENTCOM) hearing last week, and that 
raises some questions regarding NATO and associated issues.
    In the coming weeks, the United States will deploy 3,200 
additional marines to Afghanistan and over 2,000 of these men 
and women will bolster the NATO-led International Security 
Assistance Force (ISAF) presence in the southern part of the 
country.
    Yet there appears to be some ambiguity about the command 
and these additional forces. From your perspective, Mr. Hunter 
would like to ask, will these marines fall under NATO ISAF or 
CENTCOM operational control? What will be the missions of these 
forces? Under which rules of engages will these forces operate, 
under ISAF's or the United States?
    More broadly, does the current ISAF and CENTCOM division of 
labor make sense and does it maximize the effectiveness of the 
capabilities provided by U.S. forces?
    The division of labor in Afghanistan also leads to a number 
of NATO-specific questions regarding our European allies' 
military capabilities and ability to operate in a combat 
environment.
    I note that despite NATO's minimum military requirement, 
that allies spend at least 2 percent of their gross domestic 
product (GDP) on their militaries, fewer than half of the 26 
allies actually do so. I didn't know that. It seems that the 
alliance's emphasis on transformation coupled with the European 
Union's (EU) nations' growing focus on security and defense has 
not resulted in noticeable increases in expenditures and 
capabilities.
    For example, NATO nations have long recognized a 
significant shortfall in strategic airlift. Yet these nations' 
combined acquisition of C-17s relies in large part on U.S. 
contributions.
    So, Mr. Hunter wonders how can we persuade our friends to 
transform and modernize their militaries so that we can 
effectively participate in these combat operations? And at the 
outset, let me say that I know General Craddock is very mindful 
of these issues because he and I talked about them I believe 
just yesterday.
    Developing our partners' military capabilities is also a 
common theme within the new Africa Command, especially given 
the potential of the vast ungoverned spaces on the continent to 
become safe havens for terrorists. I call them hot spots. There 
is little argument that partnering with African nations can 
result in more secure borders, more responsibility, and more 
capable military forces and security institutions that are more 
responsive to national governments and can help to close the 
doors of any safe havens located there.
    However, we do understand that the European Command has 
long worked with those nations and there remains some 
skepticism that the creation of the new geographic combatant 
command is necessary or even politically acceptable to the 
African national governments and the African Union (AU).
    General Ward, please provide your perspective on why the 
creation of the African command is in the U.S. national 
security interest and how your command will expand on those 
partnering efforts traditionally undertaken by the European 
Command.
    Finally, Admiral, if you would--we understand the focus on 
transnational security challenges in your area of 
responsibility. The challenge of combating illegal drug 
production and trafficking continues to require the cooperation 
of our regional and interagency partners. Drug dealers in the 
region are adaptive and creative, using self-propelled semi-
submersibles to move drugs as well as traditional overland and 
oversea methods.
    I am interested in learning about SOUTHCOM's efforts 
against narcotrafficking, especially the use of semi-submarines 
and its work with partner nations to address counterdrug 
challenges.
    In particular, some experts have noted that as a result of 
U.S. assistance Colombia has been emerging as a regional leader 
in democracy and as a counterbalance to the socialist movement 
led by Venezuela President Hugo Chavez and his left-leaning 
supporters in Ecuador, Bolivia, Nicaragua and Cuba. However, I 
understand that despite Cuban officials' repeated request of 
his neighbors to deny safe havens to terrorists, it was 
necessary for Colombia to raid the Revolutionary Armed Forces 
of Colombia (FARC) terrorist base more than a mile into Ecuador 
earlier this month.
    Also, it is reported that documents found in several FARC 
computers may indicate possible complicity of senior Ecuadorian 
and Venezuelan officials.
    Admiral, please provide your insights into these tensions 
caused by narcotrafficking and terrorism in the region and how 
your command is addressing the military and security needs of 
our partners there. I am also interested in your perspective on 
Colombia's role as a regional democratic leader and the future 
outlook for the U.S. military presence and support both in 
Colombia and within the region as a whole.
    Chairman Skelton, thank you again for permitting me to make 
this statement. And I will look forward to the testimony of our 
witnesses.
    The Chairman. Thank the gentleman from New Jersey.
    We will ask the witnesses to testify.
    General Craddock, you are up at bat.

   STATEMENT OF GEN. BANTZ J. CRADDOCK, USA, COMMANDER, U.S. 
                        EUROPEAN COMMAND

    General Craddock. Mr. Chairman, distinguished members of 
the committee, it is indeed my privilege to appear today as the 
commander of the United States European Command.
    Mr. Chairman, I have submitted a written statement and I 
ask that it be made a part of the record.
    The Chairman. Let the written statements of each of the 
witnesses be admitted without objection.
    General Craddock. Thank you.
    And I am also privileged to be here today with two gifted 
combatant commanders and long-time friends and I indeed could 
not ask for a more capable wingmen than Admiral Jim Stavridis 
and General Kip Ward.
    Over the past 15 months, I have had the honor of commanding 
the men and women of the European Command and I am here to 
report that they remain absolutely committed to our mission. 
The Nation is well-served by these remarkably talented, 
dedicated and enthusiastic soldiers, sailors, airmen, marines 
and coastguardsmen and the families that support and sustain 
them.
    And if you would permit me, I would like to introduce my 
senior noncommissioned officer (NCO) in the European Command, 
Command Sergeant Major Mark Farley.
    Mark, would you please stand up.
    It is important that he is here today, because he 
represents all members of the EUCOM force, the officers and the 
enlisted, and he is continually out and about across the 
command checking on the quality of life, the training 
conditions and the morale.
    He and his fellow noncommissioned officers are essential to 
what we do every day. Their deeds embody the warrior spirit.
    Thank you, Sergeant Major.
    [Applause.]
    General Craddock. American forces, those of the NATO 
alliance and 16 other nations, are now serving together in 
operations on three continents. The more than 60,000 troops 
currently deployed under my command as the Supreme Allied 
Commander of Europe are a visible and effective demonstration 
of our continuing resolve to project stability and to deter, 
disrupt and defend against threats to the alliance wherever 
they occur.
    As you know, every day European Command forces are also 
deployed in support of Operation Iraqi Freedom (OIF). The 
service members assigned to EUCOM are included in our global 
force pool and stand available for missions as required.
    While support for the global war on terror is our 
overarching priority, EUCOM is also focused on sustaining 
Europe as a global partner in furthering U.S. security 
relationships. Our objectives include promoting lasting 
security and stability, maintaining the ability to employ the 
full range of capabilities across the spectrum of conflict and 
fostering the growth of partner nation capacity and capability.
    Our forward-based and rotational forces are powerful and 
visible instruments of national influence and our international 
commitment. Central to EUCOM's efforts is the completion of our 
strategic theatre transformation plan. Our transformation plan 
is synchronized with the Department of Defense (DOD), the joint 
staff, individual services and NATO to ensure that our efforts 
are mutually supportive.
    A key development over the past year was the initiation of 
the United States Africa Command, created in recognition of the 
growing importance of Africa. The establishment of AFRICOM 
remains a work in progress. European Command has provided and 
will continue to make available personnel, subject matter 
expertise, and resources to ensure AFRICOM's future success.
    NATO remains committed to collective security and 
increasingly to a broader and more comprehensive view of 
security in an interdependent world. It has taken the lead for 
security and stability in Afghanistan and now has over 47,000 
troops deployed to the International Security Assistance Force, 
ISAF. This effort remains NATO's most important and challenging 
mission.
    NATO's Kosovo mission will continue following that 
country's declaration of independence. KFOR, the Kosovo force, 
is well-trained, well-prepared and committed to providing a 
safe and secure environment. The European Command fully 
supports this effort. Approximately 10 percent of the 16,000 
international troops currently in Kosovo are United States 
forces largely from the Army National Guard.
    In summary, the dedicated men and women of the United 
States European Command remain steadfast in their commitment to 
our Nation and to our mission.
    Mr. Chairman, thank you for holding this hearing. I look 
forward to answering the committee's questions.
    Thank you.
    [The prepared statement of General Craddock can be found in 
the Appendix on page 45.]
    The Chairman. Thank you very much.
    Admiral.

  STATEMENT OF ADM. JAMES G. STAVRIDIS, USN, COMMANDER, U.S. 
                        SOUTHERN COMMAND

    Admiral Stavridis. Chairman Skelton, Ranking Member, all 
the members of the committee, thank you very much for taking 
the time to come and listen, to ask us questions and to have 
this dialogue and discussion.
    I have to echo John Craddock. I feel very blessed to be 
here with John Craddock and Kip Ward, two fine professionals. 
In fact, I feel very safe as a Navy guy to have two Army four-
stars on either side of me.
    I am often told that, ``Admiral, what you are doing is 
important because this part of the world is America's 
backyard.'' I don't think that is quite the right expression. 
It is not our backyard. It is a home that we share together 
here in the Americas.
    And so in this vibrant and diverse part of the world, where 
$1.2 trillion of U.S. trade and economy goes, where there are 
many challenges, I think it is important that we focus as a 
nation and that I, at SOUTHCOM, focus as your senior military 
commander in the region, on an area of the world that I believe 
will be of increasing importance as days go by.
    There are enormous challenges, starting with poverty, but 
also drugs and illegal trafficking, which the chairman alluded 
to. Terrorism, we see both narcoterrorism on the part of the 
FARC in Colombia, as well as nascent, the beginnings of Islamic 
radical terrorism.
    We see violence in crime. Cuba continues as a problem in 
that it is the last remaining dictatorship in the Americas. 
Every nation in this region is a democracy, save one, and that 
is Cuba.
    Haiti continues to be a nation that is trying to overcome 
extreme challenges of poverty, and today a United Nations (UN) 
force is there, and I hope to talk about some of their 
successes.
    And last, we are all aware of the regional tensions that 
have riddled this region over recent years, most recently, as 
the chairman alluded to, tensions between Colombia, Ecuador and 
Venezuela. Thankfully, those appear to be diminished, but I am 
happy to talk about them today.
    At SOUTHCOM, we approach our military-to-military role in 
ways that try and address some of these unique challenges in 
this region. Responding to natural disasters, working on the 
counternarcotics problem but in an interagency way, with the 
Drug Enforcement Administration (DEA), with the Coast Guard, 
with other interagency partners. We conduct large exercises, 
like PANAMAX, which focus on defending the important Panama 
Canal from potential terrorist attack. That is an exercise with 
20 partners. It is in every sense an international and an 
interagency sort of event.
    We are also very focused on human rights and we have a 
large human rights division that works with partners throughout 
the region to try to inculcate good practices, and we work very 
hard at that.
    And finally, we focus at SOUTHCOM on issues of language and 
culture, trying to understand the region so we can better 
interact with our partners.
    So we are doing, I think, a reasonable job for you. I would 
like to talk about that today and take your questions.
    Again, I thank this committee for its support to SOUTHCOM, 
to the Department of Defense, and, above all, to the men and 
women who serve our Nation at sea, shore, and in the air. Thank 
you very much.
    [The prepared statement of Admiral Stavridis can be found 
in the Appendix on page 97.]
    The Chairman. Admiral, thank you very much.
    General Ward, welcome.

STATEMENT OF GEN. WILLIAM E. WARD, USA, COMMANDER, U.S. AFRICA 
                            COMMAND

    General Ward. Thank you, Mr. Chairman, Representative 
Hunter, and distinguished members of the committee.
    It is an honor as commander of the United States Africa 
Command to present to Congress our first posture statement and 
also to be here with my teammates to the right, Admiral Jim 
Stavridis and General Jim Craddock, who I am personally 
thankful for their personal commitment to my efforts in 
standing up this command, and my thanks goes to you.
    Also, as was pointed out by General Craddock, the 
importance of our enlisted force, I have with me my senior 
enlisted leader, Command Sergeant Major Mark Ripka and all the 
things--Mark, would you stand up?
    All of the things that General Craddock said about Sergeant 
Major Farley certain apply here. And as importantly, with what 
we want to do, providing our partner nations to help increase 
their capacity, the role of the noncommissioned officer in that 
endeavor is essential.
    Command Sergeant Major Ripka is an excellent example, as 
well as leader, in helping us promote those interests that we 
have as we deal with our partner nations.
    Thanks, Sergeant Major.
    [Applause.]
    General Ward. The creation of this command signals a new 
focus on United States strategic interests for Africa and its 
island nations. Working with our African partners, interagency 
friends and others, we are building a new organization that 
will benefit the citizens of the United States and the peoples 
of Africa and provide a model that advances interagency 
cooperation in conducting security assistance.
    We look forward to pioneering the Department of Defense's 
vision for a joint interagency command. Africa Command will 
optimize the military's contribution to achieving U.S. national 
security objectives in Africa. We will move forward in a 
deliberate and sustained way, committed to partnering with the 
people and nations of Africa to help create a secure and 
encouraging future.
    Our goals for African security as well as the work that 
this command will oversee are a continuance of established 
United States activities. This will not preclude some new ideas 
of our own to add value to existing programs, but sets the 
stage for continuous improvement.
    The United States has provided security assistance through 
a variety of programs to build capacity in African militaries 
and their security organizations. In my face-to-face meetings, 
African military and political leaders have made it clear that 
they want these programs to continue. We will sustain our 
current efforts, and through Africa Command will improve 
military programs through our strategy of active security.
    We will orient our programs on stability in order to 
prevent conflict. We will seek to enhance capacity building and 
those efforts that we carry out with African militaries and 
their standby forces.
    Our intent is to enable them to provide for their own 
security. Active security includes sustained support to our 
U.S. interagency partners such as the State Department's Africa 
Contingency Operations and Training Assistance, the ACOTA 
program, which has helped prepare thousands of African military 
personnel for international peacekeeping operations.
    ACOTA-trained forces participate in United Nations and 
African Union peacekeeping missions in Somalia, Darfur and 
other areas of conflict. U.S. Army and Marine Corps personnel 
conduct military-to-military training and professional 
development at the individual and unit level. Active security 
includes U.S. Air Force assistance in terms of airlift and 
logistics support to African peacekeepers and support to 
programs to assist in air domain safety and awareness.
    We also provide special operations counterterrorism 
training teams to strengthen national capabilities and enhance 
multinational cooperation. Our force also supports humanitarian 
efforts. U.S. military programs complement the U.S. Agency for 
International Development (USAID). We have conducted de-mining 
in former conflict areas as well as promoted HIV/AIDS relief 
awareness programs in African militaries.
    Additionally, the U.S. Navy's Africa partnership station 
and U.S. Coast Guard activities are helping African nations 
increase their maritime safety and security through training 
activities and programs that enhance maritime awareness.
    It is my honor to serve with our uniformed men and women as 
well as our interagency partners who are making this new 
command a reality.
    Again, thank you for your support, and I too look forward 
to taking your questions.
    [The prepared statement of General Ward can be found in the 
Appendix on page 131.]
    The Chairman. General, thank you.
    Before I ask there to be any questions, Mr. Saxton has a 
comment.
    Mr. Saxton. Mr. Chairman, thank you very much.
    It is my pleasure and in fact an honor to welcome a new 
member to the committee, Mr. Rob Wittman. Rob is here with us 
this morning, sitting in the front row. Rob is from Montross, 
Virginia. He is taking the place of our great friend, the late 
Jo Ann Davis in the First Congressional District of Virginia. 
He will be serving on the Seapower and Readiness Subcommittees.
    Rob's wife is Kathryn, and he has two children, a son named 
Josh and a daughter named Devon.
    So, welcome aboard.
    [Applause.]
    The Chairman. Thank you.
    I will just ask one quick question and save my questions 
for later.
    General Ward, what is the genesis of your command? Who came 
up with it? Would you tell us about it, since you are brand 
new.
    General Ward. Thank you, Mr. Chairman.
    The idea of an Africa Command is not a new idea. It has 
been talked about for many years within the Department of 
Defense as a way of looking at the continent of Africa as 
Africans look at Africa.
    About two years ago, this discussion was continuing, and I 
was not a part of it. But as I understand it, Chairman, the 
Secretary of Defense made a recommendation to the President 
that, as we look at how we conduct our business in providing 
military assistance to the continent of Africa, and recognizing 
the growing strategic importance of the continent, to focus our 
efforts in a more effective way in working with the various 
partners who are responsible for doing the work that they do on 
behalf of our Nation on the continent. An organizational 
construct within the Department of Defense that recognizes the 
totality of Africa as Africans see it was in our best interest, 
as far as how we focus the delivery of our security assistance 
programs, and how we, as the Department of Defense, look at the 
continent of Africa.
    That recommendation was made to the President December of 
2006 and in early 2007 President Bush signed the directive 
announcing the stand-up of United States Africa Command with an 
initial operational capability effective 1 October 2007 with a 
full operational capability to occur in October of this 
calendar year.
    The Chairman. General, thank you very much.
    Mr. Saxton.
    Mr. Saxton. General Craddock, let me just turn to a subject 
that you and I have talked about before.
    In the coming weeks, the United States, as I said in my 
opening statement, will deploy over 3,000 men and women to 
Afghanistan. There appears to some to be ambiguity about the 
command of these additional forces.
    From your perspective, will these marines fall under NATO 
or ISAF or CENTCOM operational control? And also, what will the 
missions of these--what will their missions be? And under what 
rules of engagement will these forces operate, ISAF's or those 
of the United States?
    General Craddock. Thank you, Congressman.
    With regard to the question of the marines, 3,200 of which 
1,000 will be under U.S. command, Central Command, for training 
purposes. The remainder, 2,200, will be assigned by transfer of 
authority to ISAF. They will be under the operational control 
of the commander of ISAF, General McNeill. And he has the 
authority, then, to leave them under his command or either 
provide them to regional commanders under an operational 
control assignment or a tactical assignment.
    I have talked to Com ISAF. He said that will depend upon 
the mission and the task that those marines are given. The 
missions will be largely in regional command south. They can 
expect to be out and about in patrols and come in contact with 
the opposition militant forces, the insurgents, and they will 
be in a combat role. They will operate under NATO rules of 
engagement.
    And I specifically got that authority for the ISAF 
commitment from the Secretary of Defense. I asked him, ``Will 
they be sent under ISAF or Operation Enduring Freedom (OEF),'' 
and he said they will come under ISAF, transfer of authority to 
ISAF, the term we use in NATO, and they will work for Com ISAF.
    Mr. Saxton. With regard to the question you asked earlier 
from Ranking Member Hunter, does the command and control laid 
down make sense? This is one of these I think unique 
situations, that it briefs terribly, but in reality on the 
ground it works well. It is hard to explain, but because over 
several years in application and because this is largely a 
combat situation and lives are at risk, commanders have been 
able to work through processes and agreements to do so.
    The fact that Com ISAF is a U.S. commander also is I think 
a leveling factor in the command and control apparatus.
    So at this time, and this is my judgment between NATO, 
ISAF, the United States coalition, Operation Enduring Freedom, 
it is functional. I have asked Com ISAF that. He said it is 
working fine with him and he sees no reason at this time to 
make a change.
    Mr. Saxton. Thank you.
    Let me just ask you the other NATO question with regard to 
the level of commitment of our NATO allies relative to NATO's 
minimum military requirement and the seeming failure of roughly 
half the 26 allies to meet that requirement.
    General Craddock. Thank you. There are two points here I 
think.
    First of all is the commitment in Afghanistan. NATO gave 
allied command operations, my headquarters and all my 
subordinate headquarters, a task. We told them what we needed 
in terms of the numbers of organizations, military capability 
to do that, and the NATO nations have yet to provide that full 
capability.
    We are still short maneuver units. We are short of 
functional capability, what we call key enablers, rotary wing 
aviation, heavy medium-lift helicopters. We are short 
intelligence, surveillance and reconnaissance capability.
    So they are continually I guess I would use the term ``tin 
cupping'' our nation's back again and again and again to try to 
get a political commitment to provide that capability. It 
exists in the alliance.
    When I talk to my counterparts, they acknowledge it. There 
is an understanding that they could provide, but the issues are 
political in nature.
    Now, the second part, the level of commitment to the NATO 
nations to their defense establishments. NATO has set a 
benchmark of two percent of GDP against the defense sector as 
an objective. It is my understanding today based on my 
accounting and there is a little bit--nations have a different 
perspective. But the way we are looking at it, of the 26 NATO 
nations, 7 have met the 2 percent benchmark.
    The trends for those seven are not positive. Some of those 
seven we find the commitment, the percent, going down. And of 
the 19 remaining, we find a mixed bag. But I would say overall 
we do not see a general trend of increasing of the commitment 
to the security sector to get to the two percent across the 
board.
    Mr. Saxton. I guess that would be fairly troubling to 
someone in your position. Is there an effort through your 
interaction with the commanders and the political structures in 
the 26 countries to try to rectify the situation?
    General Craddock. Indeed there is, at various levels. I 
interface routinely with chiefs of defense, encourage them, 
one, to contribute more capability to Afghanistan and ISAF; 
second, to work with their political leaders to increase the 
level of budget authority given to the defense sector.
    I have taken this argument, if you will, this dilemma, to 
the defense ministers repeatedly, administrators, and also to 
the foreign ministers. I have appeared before the North 
Atlantic Council several times with the same appeal. They need 
to continue to increase the budget share, the GDP share, so 
that several things can happen. One, they can support 
operations, which are costly. Two, they can then support 
transformation of their forces to 21st century expeditionary 
deployable capable forces.
    Mr. Saxton. Thank you.
    Let me just ask General Ward, General Ward, you have got a 
unique set of challenges, I am sure, in your new job. And I am 
just wondering if you could just kind of tick off the top three 
challenges that you have for us. What makes your job 
particularly difficult? And if you like, tell us about some of 
the successes that you have had so far.
    General Ward. Thank you, Congressman.
    As you know, the command is just standing up, and so 
clearly the challenge of forming a brand new organization is 
there. I attribute success on any given week when I make a 
phone call and the same number that I used to contact one of my 
staff's offices is still in effect, or I walk down the hallway 
and the office that I think someone is in, they are still in 
that same office over a week's period of time.
    We are building a team. We are bringing together a diverse 
mix of civilians and military personnel that will come together 
and cause us to be more effective and comprehensive as we plan 
the activities that we will conduct in helping our nations who 
we partner with on the continent of Africa and their supporting 
organizations be more capable of providing for their security.
    As we do that, we are dealing with nations who are in 
varying stages of democracy. Their maturing levels are at 
varying stages. And so therefore we have to do it very 
cognizant of the fact that one size does not fit all. We have 
to be very understanding of our partners, cultural 
appreciation, understanding of historical relationships, so 
that we deliver a program that in fact does what they want to 
do, what we want to do, and our combined interest of building 
capacity in ways that provide for long-term stability on the 
continent of Africa.
    This is a long-term endeavor. I am not known as being a 
very patient individual, but I know I have to be, because this 
is something that we realize, quite frankly, not in days and 
weeks, but over time.
    So as we build this command, sir, causing the expectations 
to be metered or checked in a way that one keeps the enthusiasm 
for what we want to do present but at the same time recognizing 
the realities of the situation so that we in fact do bring 
value added and do no harm to a very important part of the 
world through programs that mean a lot for our own internal 
stability as well as our national security and, importantly, 
the security of the African continent.
    So working through that, putting programs in place, putting 
campaign plans, if you will, in place, that are well-
understood, so that our intent is better understood, so that it 
is not misrepresented. So we have a challenge in our strategic 
communications. We are working that aspect of it. So we don't 
confuse our true intent and when we do that, it is in fact met 
with positive results.
    The challenge is that is a time-consuming endeavor as well, 
and it is one that we must repeat over and over again.
    And so it is those sorts of things that we are doing that 
we have to be focused, we have to remain dedicated as we do 
them.
    The aspect of this entire endeavor, Congressman, and I will 
tell you remains very encouraging for me as I travel around the 
continent, and my senior staff, my two deputies, one of whom is 
a senior member of the Department of State, the ministerial 
counselor, my deputy for civil military affairs, we receive 
good support for our efforts of helping them be more capable of 
providing for their own security.
    They appreciate that attention and focus and the 
recognition that this command illustrates of their importance 
is something that is well-received.
    Mr. Saxton. Mr. Chairman, I have some questions about 
SOUTHCOM which I will hold for a little bit later and give some 
other people a chance here.
    The Chairman. We will have a second round.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Admiral Stavridis, good to see you, sir.
    Admiral Stavridis. Sir, good to see you. Thank you.
    Mr. Ortiz. Welcome to our witnesses today.
    I was just wondering if you have any concerns about any 
increased presence of Islamic radicalism in the Southern 
Command region? And what is your assessment on any current 
terrorist training activity that might be being conducted in 
the region or funded through illegal drug trafficking? And does 
the relationship that Venezuelan President Hugo Chavez has 
developed with Iran concern you?
    The other day, we had the commandant of the Marine Corps, 
and I asked him about what was happening then, breaking 
relations with Colombia. Another question is, we don't know 
what type of equipment he has bought, unless maybe we do have 
the intelligence. I know he has been buying equipment from 
many, many places.
    I know I put a lot of questions there, but maybe you can at 
least touch on some of them, Admiral.
    Admiral Stavridis. I certainly can, sir.
    Let me start with terrorism in the region, and I think it 
is important to recognize there are sort of two levels or two 
forms of terrorism in this part of the world. There is 
narcoterrorism, which we think of most clearly associated with 
the FARC in Colombia and the Sendero Luminoso, the Shining 
Path, in Peru.
    These are groups that have Marxist-Leninist views, and are 
using narcotics and kidnapping as a means of raising funds. So 
they are using terrorist methods for political upheaval that 
they are attempting to direct against democratically-elected 
governments.
    So that is narcoterrorism, and that is a force that must be 
contended with, and I am very encouraged by how our friends in 
Colombia are responding to the FARC, who has been reduced from 
a high of about 18,000 members down to somewhere around 8,000 
or 9,000. So that is narcoterrorism. It is a constant struggle, 
and it is one that is going fairly well in Colombia.
    Islamic radical terrorism is a much less immediate force in 
the region, but it has the potential to become of greater 
concern to us. At the moment, I would say at an unclassified 
level it is largely centered on proselytizing, recruiting, 
money laundering. It is hooked somewhat into the narcotics 
trade. And above all, it is a means of generation of revenue, 
largely for the Hezbollah Islamic radical organization. Moneys 
are garnered here in Latin America and go back to Hezbollah. So 
that is of concern.
    Iran, as we know, is a state sponsor of terrorism, has 
links to Hezbollah, and so I am concerned about linkages 
between the Iranian state and nascent Islamic radical terrorism 
in this region.
    Now, sir, you asked also about the issues in Venezuela, 
Ecuador and Colombia. As I think most of us know, about two 
weeks ago there was a flare-up there involving a border 
incursion by the Colombian military and an attack against a 
FARC leader. Diplomatic relations were broken or about to be 
broken among several of those states.
    There was some movement of troops toward borders. I am 
happy to report that the leaders in the region, and this is an 
important and positive thing, that the leaders in the region 
have settled that amongst themselves at a summit that was 
convened in the Dominican Republic last week.
    In addition to the good work by the leaders of the states 
involved, there were also the good offices, President Lula of 
Brazil, President Bachelet of Chile, and other regional 
important actors.
    So the region came together to solve that problem, and that 
is very encouraging.
    Now, finally, sir, you asked about the equipment that the 
Venezuelans are obtaining, the military equipment, and I will 
tell you, as I did last year, I am concerned about it. It seems 
like a high level of weapons purchases. Let me give you some 
examples: 25 high-performance aircraft, 50 new attack 
helicopters, over 100,000 AK103 very advanced automatic rifles, 
military transports, diesel submarines, very advanced 
technology.
    I personally have difficulty understanding why that level 
of weapons would be needed by the Venezuelan state, because as 
we have just seen, this is a region that is not prone to going 
to war, but has the capacity to solve peacefully disputes.
    So I think I have tripped along through a whole series of 
questions there, but hopefully I got to where you wanted to go, 
sir.
    Mr. Ortiz. You answered them well, but before my time runs 
out, General Ward, we are happy to be in Africa, but sometimes 
our country goes to places where maybe we are imposing or maybe 
they don't want us to be there. But I think that in your 
opening statement you mentioned that we were welcome there, 
that you talked to the political leaders and the community.
    Are we going to be welcome there? The first question I must 
ask is do they want us there?
    General Ward. Thank you, Congressman.
    They want what we can offer them in assistance as they work 
to build their capacity. How we do that is a very important--
and your point is one that we pay strict attention to--the 
notion of being there insofar as how we deliver security 
assistance.
    Yes, sir. They do want us there. They want us there to 
assist them as they help increase their own capacity as they be 
more proficient, as they cause their transforming militaries to 
be militaries that are respectful of human rights, that are 
responsive to elected civil authorities, that also abide by the 
rule of law.
    Our example, our relationship with them, helps them move in 
that direction.
    The presence issue with respect to where we go and how we 
go, is an issue that is a bit more complicated, and the 
deliberateness of anything that we do is taken with that in 
mind.
    And so at this point in time, there are no intentions from 
the standpoint of rushing through the continent in the 
traditional form of establishing a headquarters or bases or 
things of that sort.
    As we continue to deliver programs, as these programs are 
desired by the Africans, as these programs are in keeping with 
our foreign policy objectives, our national security 
objectives, and if it is determined that a presence will be 
something that will be more supportive of that, then that would 
be pursued when those conditions are there with our African 
partners, with obviously our government here, and full 
transparency of the fact that what we do is something that we 
all want to occur.
    Mr. Ortiz. Thank you so much. My time just ran out. Thank 
you.
    The Chairman. Thank the gentleman.
    John McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, you were are all very gracious to each other in 
your opening comments, appropriately so.
    I should tell you, we are all very fortunate to have three 
such distinguished gentlemen in service to this Nation and we 
thank you all for that.
    General Craddock, you wrote in your written statement about 
the Trans-Sahara Counterterrorism Partnership. Could you tell 
us a little bit more about that? Obviously, terrorism is a 
concern we all have. We just heard Admiral Stavridis talk about 
SOUTHCOM and the dangers that exist there.
    But as we look across the globe, certainly up in the 
Maghreb and certainly throughout the Horn, et cetera, is a very 
troubling spot. And I would be interested in exactly how the 
partnership is working and how, if at all, you are working with 
General Ward to kind of bring that big continent together in 
that initiative.
    General Craddock. Thank you, Congressman.
    The Trans-Sahara Counterterrorism Program is a program 
originally initiated with the Department of State and 
Department of Defense, so there are two components to this.
    The overarching program Trans-Sahara Counterterrorism 
Program, and that is a State lead. And that is bringing many of 
the civil aspects of building institutions, enhancing 
infrastructure, to that area. And then the other side of that 
is Operation Enduring Freedom Trans-Sahara (OEF-TS), the DOD 
side, where we are working with the nations there in the 
Maghreb area, to build their capabilities, security 
capabilities and capacities, for better control and self-
defense in their own interest.
    I would tell you that the OEF-TS side of that is fully 
funded. My assessment is it is working well. We have used the 
SOCEUR, the Special Operations Command of Europe, personnel 
through the Joint Combined Exchange Training (JCETs) over the 
last couple of years to great extent and great advantage. And 
we are working very well with our partner nation militaries 
there to enhance their capability.
    I would tell you that the Trans-Sahara Counterterrorism 
Program is working. But it has not been funded to that same 
level that the OEF-TS is. So we are hoping to be able to get 
that up and move that along a little faster.
    The threat, as you know, I am sure, is the affiliation now 
of Islamic terrorists in that region with al Qaeda. The al 
Qaeda, AQIM, al Qaeda in the Islamic Maghreb, now has become, 
if you will, a franchise. We are seeing linkages and we are 
seeing financial and logistic support and training support 
also.
    It is becoming bolder in terms of its attacks and 
increasingly a greater threat to the nations of that region.
    Now at this time, the OEF-TS, Trans-Sahara, the DOD part of 
the effort there, is still in the hands of European Command, 
because AFRICOM has not stood up to the extent that we can 
transfer that function. We are in the process, a very complex 
but amazing effort by two staffs, particularly the AFRICOM 
transition team, to identify all the missions, activities, 
programs, operations and exercises, and it is an enormous 
undertaking. And then timeline a transfer of that authority and 
responsibility to AFRICOM.
    So the OEF-TS has yet to transfer. We are working to ensure 
that Kip Ward's folks are onboard, trained, and then ready to 
transfer that over. So we all have it, I think, for the next 
several months; obviously, the objective, by the end of the 
fiscal year.
    But I am, again, encouraged with the military-to-military 
effort that is ongoing. We are working with our State 
Department colleagues to enhance the capability of the Trans-
Sahara program from their aspect.
    Mr. McHugh. We all look forward to that, to Kip Ward 
getting both feet and both hands, as I know he can do, on that 
as well.
    Let me ask you, I am going to give you your choice because 
we have got very short time here. You also mentioned in that 
regard your concerns about some of the lack of interoperability 
of foreign military sales and also the concerns you have with 
military satellite (MILSAT) architecture. Pick one of those and 
tell us what the problems are.
    General Craddock. Let me deal with the interoperability. I 
think what we have to do is have a--and it is not just, I don't 
think, EUCOM or AFRICOM. We have to have a more coherent 
approach to our capabilities, if you will.
    Working with nations, determining what it is they think 
they need, and then understanding what it is we want them to 
achieve, what capabilities are needed in today's world, and 
then working with the security cooperation folks and Office of 
Secretary of Defense to provide coherent packages so that we 
apply the same equipment, if you will, capabilities, 
particularly in some of these high tech electronics, to all the 
nations as opposed to randomly selecting certain types for each 
nation and then they never work together when we need them.
    And we just haven't done a good job, and we have got to get 
a more coherent approach.
    The Chairman. Thank the gentleman.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    I wanted to ask how information flows and what you all's 
roles are.
    Admiral Fallon was here on March 5 testifying as the 
combatant commander for Central Command--and by the way, I 
consider the five of you geographical combatant commanders just 
the pinnacle of what is good about America. We greatly value 
your service and your expertise. You are a combination of 
soldier, diplomat and wise people, and we appreciate you.
    Admiral Fallon, in response somewhat to Ms. Sanchez's 
question and Mr. Thornberry's, I believe, at some point said 
that he needed 2,000 additional troops, primarily trainers, in 
Afghanistan. Now, he didn't talk about NATO troops. He was 
talking about he needed 2,000 more U.S. troops in Afghanistan. 
He didn't mince any words about it.
    The following day we had the commandant of the Marine 
Corps, and I asked him if he could provide the 2,000 troops and 
he said, no, not without changing the dwell time issues and the 
whole issue of the frequency of deployment.
    On March 12, the U.S. Pacific Command (PACOM) was here, 
Admiral Keating, and I asked him--he had expressed some 
reservations in the press about he was down 30,000 troops 
overall. I asked him, what if somebody asked him for 2,000 more 
troops now, and he said he could provide them. He repeated and 
emphasized he had 280,000 troops and he had the ability of 
coming up with 2,000 troops.
    So my question is, we are a nation at war in two places, 
one of them being Afghanistan. There is no controversy, I don't 
think, in the minds of the American people or the Congress, 
about Afghanistan.
    We have the combatant commander, Admiral Fallon, testifying 
publicly he needs 2,000 more troops. We have another one of 
your colleagues, Admiral Keating, testifying that he can 
provide the 2,000 troops. What am I missing here? Why is that, 
given the incredible respect that we all have for you and I 
think the Pentagon and the military has for you, where is the 
disconnect in the flow of information?
    General Craddock. Let me start, if I could, Congressman.
    I am surprised also. Look, if I were asked, if you are 
asking me, can I provide 2,000 out of European Command, the 
answer is no, because my forces are in the global force pool. 
My forces are rotating into Iraq and into Afghanistan, and my 
forces are managed by the joint staff and they are available 
for assignments as required.
    So in our global----
    Dr. Snyder. So you are what we call a force receiver, not a 
force provider.
    General Craddock. I am a force provider to OIF and OEF, 
from my assigned forces in European Command. I do not receive 
forces unless I go back with a request for forces for a 
specific purpose and ask for them.
    Dr. Snyder. Right.
    Admiral Stavridis. I think I'll probably be in the same 
position as General Ward, but in my personal situation, sir, 
first of all, we have only at any given time less than 4,000 
troops deployed throughout this region of the world. I am not a 
heavy demand in any sense.
    I have no assigned troops. I simply go to the pool that 
General Craddock is talking about.
    So my needs are met. I don't have any excess. And in terms 
of the specific question you have about Admiral Fallon and 
Admiral Keating, I am sorry. I just can't address that.
    I am a satisfied user of what I think is a sensible system.
    Dr. Snyder. And I assume, General Ward, you are in that 
same----
    General Ward. That is correct, Congressman.
    Dr. Snyder. You understand our confusion.
    Admiral Stavridis. I do.
    Dr. Snyder. I mean, we want to win these wars.
    Admiral Stavridis. Yes, sir.
    Dr. Snyder. Regardless of people's views about how we got 
into Iraq, we want the best outcome we can have. And we have 
somebody at your level saying I need 2,000 troops. It is 
concerning. It is very, very concerning.
    I wanted to ask the same question I asked Admiral Keating 
about Admiral Fallon, which is, because of my great respect for 
you all and the information that you provide both privately and 
in these public settings, while you all can be replaced 
tomorrow, there is always concern created when something 
happens like what has gone on the last week with Admiral 
Fallon.
    My question is, do we have to have any reservations that 
the wrong signal is going to be sent to the three of you that 
the information you are going to provide us, both publicly and 
privately, is somehow going to be constrained by what has 
occurred in the last few days with Admiral Fallon's 
resignation?
    General Craddock. Congressman, when I took this job, as I 
have previous assignments, I will be forthright and answer your 
questions without any hesitation. I have no reservation or 
concern with that regard.
    So in terms of what has happened here recently, today I 
know what I read in the papers, and that is probably not 
enough. But I will continue to respond as I always have, to the 
best of my ability, to answer the questions where they lie.
    Admiral Stavridis. As I think we say on Capitol Hill, I 
want to associate myself with General Craddock's remarks. I 
agree completely.
    The essence of all these jobs is honest and integrity, and 
I will continue to answer all questions put to me honestly and 
with integrity.
    General Ward. Representative, that has been my way of doing 
business for 36-plus years and I will not change.
    Dr. Snyder. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman from Maryland, Mr. Bartlett.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your service to our country.
    There is an old Indian saying that you shouldn't criticize 
a person until you have walked a day in their moccasins. We are 
unsympathetic when Russia complains about the enlargement of 
NATO into countries that were once a part of the Soviet Union 
and when they complain about the installation of military 
facilities in those countries.
    General Craddock, I would like you to image for a moment 
that we had lost the Cold War. NATO is gone, but the Warsaw 
Pact is alive and growing. And from time to time, new countries 
are added to the Warsaw Pact. This time, the countries that are 
being added to the Warsaw Pact are Mexico and Canada.
    How do you think you would feel, sir, in that situation?
    General Craddock. As a citizen in a democracy, I would be 
concerned.
    Mr. Bartlett. You see, I have some trouble understanding 
how it is in our long-term national security interest to 
antagonize Russia by extending NATO, which was set up 
specifically to counter the Warsaw Pact, by enlarging NATO into 
countries that are directly on their border and then putting 
military facilities there.
    I am all for a European goodwill society. I just think that 
naming it NATO is inherently threatening to Russia.
    I know this is primarily a State Department issue, but the 
State Department is not sitting in the witness chairs. And I 
know that our military has a role to play in this because we 
make recommendations relative to where our military ought to be 
placed and where our military facilities ought to be placed. 
And I remember that Indian observation that you shouldn't 
criticize a person until you have walked a day in his 
moccasins.
    And when I put myself in the position of Russia, imagining 
that NATO is gone, the Warsaw Pact is enlarging and the next 
two member nations joining it would be Canada and Mexico.
    I really don't need a response sir, I just wanted to get 
this on the record. Just one member's observation, trying to 
sit in another person's seat and see how they see the world 
from that position.
    Thank you all again, very, very much, for your service.
    The Chairman. Ms. Sanchez, please.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, once again, for being before us.
    I have a couple of questions. I think the majority of my 
other question with respect to the troops in Afghanistan and 
the information we had from Admiral Fallon and others I think 
was taken up by Mr. Snyder, so I appreciate you following up on 
that, Mr. Snyder.
    I have a question for Admiral Stavridis. In your written 
testimony you articulate that your command facilitates military 
and defense exchanges, numerous defense seminars and mobile 
training teams throughout the region, and you go on to say that 
training at the security institutions continues to be very 
popular and beneficial toward the partners in the region and 
access to funded billets as a U.S. school significantly 
diminishes the draw of extra-hemispheric military influence.
    So I would like to ask you about a specific security 
institution since I didn't see it mentioned in your 47 pages of 
written testimony. As you know, each year the House of 
Representatives votes on whether to cut funding for the Western 
Hemisphere Institute for Security Cooperation, or WHINSEC. And 
as you know, I am on the board of visitors of that institution 
for this committee. It is at Ft. Benning.
    And last year the House had a very close vote on whether to 
eliminate the funding for WHINSEC, a vote of 203 to 214. So, 
Admiral, is WHINSEC a priority for your command? And if so, how 
do you rank its importance within the other priorities of your 
posture statement?
    Admiral Stavridis. WHINSEC is our premiere opportunity for 
high-volume, high-quality training for military officers and 
senior enlisted from the entirety of Latin America. And it is 
important to say it is not just the students, ma'am. There are 
also 200 on the faculty, including representatives from 18 
different countries, on the faculty, as you know from your time 
on the board of visitors.
    About 1,000 students at any given time, so the throughput 
is very high. It represents about 60 percent of our total 
available methodology for bringing our military partners from 
throughout Latin America, the Caribbean and Central America.
    I want to hit a bell that is very important and that, 
again, as you know from being on the board of visitors, is 
absolutely central to this is the human rights curriculum 
there. And that is about 35 percent of the total curriculum 
that any given student receives. And to have that centralized 
is very, very important and powerful for us.
    So I would put WHINSEC very near the top, if not the top, 
of this particular segment of our outreach and ability to get 
into the region. And I continue to be very supportive of it.
    I should also mention, if I could, ma'am, that Mexico is 
not formally part of SOUTHCOM. It is part of U.S. Northern 
Command (NORTHCOM). But I have had many conversations with 
General Renuart, my opposite number at NORTHCOM, and he is 
equally strong a supporter of WHINSEC as I am.
    Ms. Sanchez. And, Admiral, how does having graduates of 
WHINSEC, I don't know how many they would number at this point, 
but we have had the school for a long time now----
    Admiral Stavridis. Thousands.
    Ms. Sanchez [continuing]. As you know, former School of the 
Americas. We had some problems with that. We changed it over.
    Admiral Stavridis. Right.
    Ms. Sanchez. How does that affect your cooperative posture 
with respect to your counterparts or people under you who deal 
with these different countries as we try to figure out what the 
security situation should be for the western hemisphere?
    Admiral Stavridis. Well, as you can imagine, it is just a 
powerful human linkage. If we think about how we in the United 
States try and send our message into the world, there are a lot 
of ways to do that. You can do it with film, you can do it with 
television, you can do it with radio, you can do it with 
publication. But human contact trumps all other forms in the 
transfer of information.
    So that human-to-human dimension that occurs when 1,000 
students a year come, live in a beautiful place like Georgia 
and are welcomed into the homes of the families who are 
sponsoring them. It creates an absolutely indelible bond that 
then pays off in the sense that if you think what we are doing 
in the U.S. military is right, generally, and we sure make our 
mistakes, but generally you think what we are doing is right, I 
think you should feel good that we are attempting to transfer 
some of that value system into our partners and neighbors.
    And also I have to say we learn a lot from them. We learn 
an enormous amount about the region from having students from 
13, 20, 25 countries, come through that course. We learn about 
their culture, their language, their approach, what they value, 
what they don't value.
    So that exchange becomes very powerful as you get into a 
situation where, for example, there are regional tensions, and 
yet there are students, former students from each of the 
countries, who have served, who know each other, who know 
people in the United States. It allows us to help defuse 
tension, as simply one example of the payout of WHINSEC.
    Ms. Sanchez. Thank you, Admiral.
    Thank you, Mr. Chairman.
    The Chairman. I appreciate the gentlelady's inquiry on that 
school.
    Admiral, as you know, there have been in years and years 
past complaints about graduates from that school, or its 
predecessor. To your knowledge, have there been any problems or 
complaints or such, human rights violations, of graduates in 
recent years?
    Admiral Stavridis. No, sir.
    And I would like to add that first of all it is utterly 
transparent. We are happy to have any Member of Congress, any 
reporter, come any time. And we also have an open house day 
when any member of the public can come. Last year we had 1,000 
people come, including some people who disagreed with the 
former school, the old School of the Americas.
    And we simply are trying to show that this is not the 
School of the Americas. This is a new institution that is 
absolutely centered on human rights and the exchange of 
information with Members of Congress, such as Congresswoman 
Sanchez, Senator Levin, and others who are on the board of 
visitors, to help make sure it fulfills the correct ambitions 
that we all have for it.
    The Chairman. Thank you, Admiral.
    Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    And gentlemen, again, let me echo my thanks to all of you 
and the men and women who serve under your command.
    General Ward, in your command, I know special forces will 
play a very important role in terms of helping with training, 
indirect action, and other supporting activities. Would you 
comment for the committee on how that is working out and just 
talk about the positive aspects of our participation there?
    General Ward. Thank you, Congressman.
    As General Craddock pointed out, at the current time the 
activities on the continent are still being conducted under the 
auspices of U.S. European Command and General Craddock's 
Special Operations Command Europe (SOCEUR) still is in charge 
of those activities where special operation forces are doing 
work in Africa.
    U.S. Africa Command does envision a theatre of special 
operations command. That command is being formed now, as is my 
headquarters, to be doing similar work that is being done by 
SOCEUR on the continent.
    Those activities include military-to-military training 
activities, basic unit tactics techniques, and procedures in 
conducting security operations that helps those nations provide 
for their own internal defense as well as the capability and 
capacity to participate in like-minded activities that help 
counter the terrorist threats that exist in their regions.
    And so there will be a theatre of special operations 
command as a part of U.S. Africa Command that will have the 
mission of providing for extremist response should that be 
required, as is currently the case through SOCEUR. And this 
theatre of special operations command will exist with 
capabilities similar to the capabilities that exist in any 
geographic combatant headquarters as it pertains to their 
special operations command and its capabilities.
    Mr. Hayes. Thanks to those comments, I think we are all 
appreciative of the role that they play there. And given the 
emerging status of Africa as it relates to oil and other 
resources, again, they are even more important.
    General Craddock, would you like to comment as the general 
in charge at the moment as well?
    General Craddock. Thank you, Congressman.
    I can only endorse what General Ward said and what you just 
said. They are very important.
    Because they are out and about in these JCETs, these 
exchange training activities, let me give you an example. 
Recently there was some instability in Chad and it was very 
fast paced and actually was a bit unanticipated. Because we had 
JCETs in the region training counterparts, we were able to 
quickly put them in the right position with some fixed-wing 
lift capability and to assist the ambassador with a 
communications capability with the opportunity then to provide 
him a command and control capacity that he would not have had, 
and to quickly work the ordered departure that was implemented 
by the State Department for the embassy there.
    Now, that happens because we have got those forces, those 
Operational Detachment-Alpha Teams (A-teams) and those JCETs 
engaged in the theatre with small capability. But again, it is 
a little bit in a large theatre that goes a long way.
    So I will tell you that SOCEUR, Special Operations Command 
Europe, is extraordinarily high tempo engagement in Africa that 
will transition to Special Operations Command Africa (SOCAF) at 
the appropriate time.
    Mr. Hayes. Thank you for those comments.
    I think it is important for the public to know how much of 
a role those forces--and all our forces are special, make no 
mistake about that--but in prevention of conflicts and other 
things.
    General Craddock, drug flow from South America through 
Africa to Europe, what is AFRICOM, and I'll pass it on to you, 
too, General Ward, mission in that regard? We know that is 
happening as well.
    General Craddock. At this time, with regard to EUCOM, since 
we still have that mission and we are watching closely in West 
Africa, and the lines of communication, both for smuggling of 
drugs and actual persons and arms also, through West Africa, up 
through the North Africa Maghreb, and into the southern part of 
Europe. There is great concern that that is also a potential 
foreign fighter flow through that area and onward movement 
toward the Middle East.
    There is concern in Europe also. I won't say we partner, 
but we coordinate closely with SOUTHCOM. There is a new 
counterdrug office organization set up in Spain, I believe.
    Admiral Stavridis. That is in Lisbon, Portugal.
    General Craddock. That we are monitoring, SOUTHCOM is 
working closely with, so we can enhance the picture that we 
have, it is ongoing, increase the intelligence gathering means 
in that region, and then be able to have a common operating 
picture across the combatant commands (COCOMs).
    Now, when AFRICOM comes onboard, again, we transition that 
to them. But we are seeing more and more great concern and 
sensitivity of the European nations, and they are participating 
in this to a greater extent, and that is a good thing.
    Mr. Hayes. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mrs. Davis.
    We have, it appears, I am told, two votes. One is the Lee 
amendment and the other is a quorum call for the purposes of 
swearing in a new member.
    Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And thank you to all of you for your long-standing service 
to our country. It has been exceptional. We appreciate it.
    I wonder if you could turn specifically, General Craddock, 
to talking about the 1207 authority and the use of funds from 
the DOD to the stabilization efforts but nonmilitary efforts 
through the State Department. Have you been able to use that 
authority? And has the response been what you would expect?
    I know that this is relatively new, but we are going to be 
looking at that authority again.
    General Craddock. Thank you, Congresswoman. I appreciate 
that.
    The 1206, 1207, and 1208 authorities indeed are relatively 
new, but they have been in this short time, in my judgment, 
very powerful. The title 22 funding through the Department of 
State into regions for the purposes then of foreign military 
financing (FMF) and International Military Education and 
Training (IMET) is all very helpful, but here is another 
opportunity with authority from State Department, funding from 
the Department of Defense, to be able to provide another avenue 
for building partner nation capability and capacity in 
counterterrorism activities.
    And we are finding throughout Africa and I think also in 
Eastern Europe, the Caucasus, if you will, this is helpful 
because these terrorist organizations are embedding themselves 
into criminal organizations and using centuries-old lines of 
smuggling, if you will, to move back and forth, not only 
persons but weapons, arms and other contraband that they use, 
obviously, to gain financial advantage.
    So this authority provides us, 1207 particularly, some 
infrastructure capability to assist partner nations to come 
onboard and increase their capacities to deal with this.
    Mrs. Davis of California. When do you think is a fair time 
to assess the extent to which they have been able to really 
capitalize on that, to be able to bring those individuals 
forward?
    General Craddock. Well, I don't think it is right now. 
First of all, the 1206 we got first, and we are using it now to 
greater advantage. The 1207 has come onboard. Quite frankly, in 
this huge system we have, it takes a while to understand what 
we can do to work through the legal framework of what the 
limits of the authority is and then apply it. We have to get it 
out to our offices of defense cooperation.
    I think it will take a couple to three years to really see 
the value.
    Mrs. Davis of California. Is there anything that we can do 
to be more helpful in that regard?
    General Craddock. I think that enhancement of the 1206; I 
think we are limited now. We have asked for more. It would be 
helpful. And then second, watch that and continue to cascade 
that into the 1207, as we come back and give you positive 
results.
    Mrs. Davis of California. Okay. Thank you. I appreciate 
that.
    Admiral Stavridis. Can I just add a comment to that from 
the SOUTHCOM perspective?
    First of all, I believe General Craddock is on point in 
everything he said. I would only add to it, it is important to 
know, it is kind of a dual-key approach. It is both State 
Department, as in the ambassador, as well as the combatant 
commander, who sort of close that switch together. So it is a 
real example of sensible interagency partnering and, thus, I 
think is a powerful tool.
    Mrs. Davis of California. Thank you.
    Do you think it could also stimulate our European allies or 
our allies generally in NATO to be engaging in similar efforts? 
Is it something that we see on their part, and does it define 
in any way the threats as they see them in the region?
    General Craddock. Let me provide two responses and I hope 
they are not flip.
    One is, if it costs money, they probably are not 
interested. Second, when we talk counterterrorism, they view it 
as a public security issue, not as a national security issue. 
And that will be difficult.
    Mrs. Davis of California. Thank you.
    General Ward, could I just quickly--when I happened to take 
a trip to several of the African countries, I wondered to what 
extent are we using contractors, military contractors, to train 
our African military there in Africa?
    General Ward. Congresswoman, the ACOTA program, the Africa 
Contingency for Operations and Training Assistance, a State 
Department program, is a program that is implemented through 
contractors. This program is supplemented where we can by 
uniform military members as well, to help provide a current and 
living example of those attributes through a uniform serving 
member.
    But that ACOTA program is a State Department program and it 
is implemented through contracts.
    Mrs. Davis of California. If we had the personnel 
available, would we prefer to have that done through the 
Department of Defense?
    General Ward. I think the example that is provided by 
uniform members, there is none any more powerful.
    Mrs. Davis of California. Thank you.
    The Chairman. And thank the gentlelady.
    We will recess for the two votes and return.
    When we do, Mr. Wilson, you will be up.
    [Recess.]
    The Chairman. Thank the witnesses' indulgence. We not 
surprisingly may have additional votes soon. But we will forge 
on.
    Mr. Wilson.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    And Generals, Admiral, thank you for being here today.
    I have the perspective of being a Member of Congress 
representing Parris Island, representing Ft. Jackson, the 
Beaufort Marine Air Station, the Naval Hospital at Beaufort. 
Additionally, I am a veteran, 31 years. But more importantly, I 
have got four sons serving in the military, three in the Army 
Guard, one a Navy doctor who has served in Iraq. And so I am 
very proud of our military. I am very appreciative as a parent 
of your service. I have never been prouder of the American 
military and I want to thank you.
    General Craddock, this is such an exciting time, with 
victory in the Cold War, with the liberation of Central and 
Eastern Europe. I have worked very closely with the Republic of 
Bulgaria. I am the co-chair, along with Congresswoman Ellen 
Tauscher.
    This developing free-market democracy two years ago for the 
first time in their 1,225 years of existence, their national 
assembly voted for NATO bases, American bases, to be located in 
their country.
    Can you tell us what the status is of the new bases in 
Bulgaria?
    General Craddock. Thank you, Congressman.
    First of all, let me just thank you for your support and 
those of your sons. We appreciate that, their service and your 
support for their service, and all the service members.
    With regard to Bulgaria, Joint Task Force East, as you 
know, is the name given to the construct to put a joint task 
force headquarters stationed in Bulgaria, Romania and some of 
their facilities there and then rotate forces through that.
    We have received the funding required for the projects, in 
order to put the brick and mortar together to accomplish that. 
We are almost complete now with the finalizing for both 
countries, Romania and Bulgaria, of the technical agreements. I 
think 11 of 12 at the last time I checked, which was a few 
weeks ago, have been completed and are in place.
    My deputy went down to sign off on several of those 
recently.
    So I think that we are well on our way to reaching 
agreement with the how of what we are going to do, the brick 
and mortar is going in to provide the structures that we all 
need.
    And then the last part, the forces available to do the 
rotation, and then jointly with the Bulgarians and the 
Romanians, accomplish the, one, the engagement, and, two, the 
training for us as well as them.
    Now, we are a bit short on the forces. We are using forces 
out of European Command to do that, because of the intensity 
and the requirements of OIF and OEF. Our request for forces is 
yet unfilled.
    We all continue to do that. I have talked to the commander 
of European Command and we are confident we can put together 
the required forces. The key here is engagement.
    Mr. Wilson. Additionally, I have visited Russia a number of 
times and I am still hopeful for a positive relationship with 
that country. We have shared interest of fighting terrorism, of 
also the threat of nuclear proliferation.
    What has been our contact, inter-military contact, with 
Russia?
    General Craddock. European Command meets regularly at the 
staff brigadier, major general, one- and two-star level, with 
Russian counterparts. They do that to work through work plans 
for exercises, engagements, where we will exchange type units 
for a period of two or three years.
    Recently we finished that for the coming years. That was 
brought back. And that document, the work plan, was signed by 
the chairman of the joint chiefs with his counterpart, the 
Russian chief of defense.
    So we have an ongoing engagement. This year, we completed 
in December Torgau, which is an annual exercise. A bit more 
robust this year, we were encouraged, than in years past. We 
are hoping to be able to increase that for the future.
    The engagement between EUCOM and the Russian forces, I 
would characterize as difficult. We have not lost any ground, 
but we are not gaining ground because of the political 
influence rolling into the military engagement.
    Mr. Wilson. Thank you very much.
    In lieu of the last question, I just want to extend, every 
time I see General Ward, my open invitation for a home for him, 
for he and his command, in Charleston, South Carolina, on 
behalf of the Charleston Metro Chamber of Commerce. Indeed, we 
have a whole list of reasons why Charleston would be perfectly 
situated for AFRICOM.
    Thank you and congratulations.
    The Chairman. The gentleman is out of order.
    Mr. Wilson. We have got a home for you, too, in a condo, 
Mr. Chairman. [Laughter.]
    The Chairman. I have lost my train of thought.
    Mr. Johnson, please.
    Mr. Johnson. Thank you, Mr. Chairman.
    Good afternoon, gentlemen. Thank you for your service to 
the Nation.
    Admiral Stavridis, is Cuba a threat to the United States' 
security?
    Admiral Stavridis. I do not believe that in today's 
environment Cuba is a military threat to the United States.
    I think the unfortunate aspect of Cuba is that it is a 
dictatorship. Three months ago, 614 seats in their legislature 
were filled by 614 candidates who ran for office. Power passed 
at the fiat of Fidel Castro to his brother, Raul, without 
changing anything, without improving human rights, without 
improving conditions for dissidents and without opening 
economically, without anything that would relieve the 
oppression of decades.
    So I think of Cuba not as a military threat but as a threat 
to democracy in that they are the last remaining nation in this 
region that does not follow the rule of democracy, and I think 
that is deeply unfortunate.
    Mr. Johnson. Thank you, sir.
    General Ward, AFRICOM's mission requires it to work with 
both non-DOD and non-U.S. Government organizations. Can you 
describe your experience so far in establishing relationships 
and partnerships with non-U.S. Government organizations 
conducting stabilization and reconstruction activities within 
the area of operations of AFRICOM?
    General Ward. Thank you, Congressman.
    As was pointed out, we have not taken over those missions 
just yet from U.S. European Command, U.S. Central Command, and 
U.S. Pacific Command.
    Mr. Johnson. Are those operations that are ongoing?
    General Ward. The operations that are ongoing are being 
done through mechanisms that we have been using. What I have 
attempted to do is reinforce the fact with these 
nongovernmental organizations (NGOs) and agencies that it is 
not our intent to do their work. What we want to do, quite 
frankly, is to have a better understanding of their activities 
and where we can, through our actions, be supportive of them, 
we want to understand and do that.
    I have met with representatives of various NGOs as well as 
other international organizations. I have met with USAID. USAID 
has hosted several of these meetings that I have conducted with 
nongovernmental organizations so that we can understand more 
clearly, firstly, what they are doing; second, where there are 
common lines of mutual support, where we can pursue those. And 
then working in ways that we can achieve that mutual benefit.
    I think as I have done that quite frankly, Congressman, 
there has been receptivity to the approach. There has been a 
welcomed appreciation for the outreach that we have extended 
and wanting to know better. And I think the important thing--
another important thing is, where we see a contact line that 
just isn't appropriate, then we certainly would honor that and 
stay away.
    Mr. Johnson. Typically, what are some of the things that 
the NGOs and other potential partners value about American 
involvement in that region of the world? What is it that they 
want from us?
    General Ward. The NGOs that are working there that we have 
been in contact with, some of them, see our ability to get into 
the environment, the sustained nature of our presence in 
building relationships.
    As an example, we have conducted exercises whereby NGOs, 
and I'll use one to cite one, Project Hope has been a part of 
the exercises. We have gone in and worked with a Hope nation in 
addressing their medical capacity requirements. We then also 
have done partnering with NGOs.
    Mr. Johnson. But these are not military operations. These 
are more soft-power type operations.
    General Ward. Correct. It is a blending of the soft power 
with what we do. Exactly correct, sir.
    Mr. Johnson. If you could, describe for us the overall 
Department of Defense involvement in stabilization and 
reconstruction activities in Africa, including activities 
funded by DOD, State, USAID and other agencies where DOD plays 
a lead or supporting role.
    General Ward. Sir, the Stability, Security, Transition and 
Reconstruction (SSTRs) are projects that are operated under the 
auspices of our foreign policy, State Department, established 
through those programs. Where we are involved is in the 
transformation and modernization of armed forces of those 
nations. And we do that through our military-to-military 
training. We do that through the administration of various 
programs, the International Military Education and Training 
Program, whereby the professionalization, the NCO leadership, 
officer leadership, the professionalization of their 
militaries, is a part of the SSTR, we have a role in doing 
those sorts of activities. And we do that in greater support of 
the greater programs of stabilization and reconstruction within 
a particular nation and its military's uniform services.
    Mr. Johnson. What has been your experience so far in the 
development of a workable interagency process? And in 
particular, how closely are the State Department and Department 
of Defense coordinating on plans for the command and on U.S. 
military efforts in Africa in general?
    General Ward. There has been a very close level of 
cooperation and coordination with the State Department. The 
State Department was involved in the planning of the command, 
during the transition team activities. They remain involved 
with the input of my deputy to the commander for military 
activities, who is a senior State Department ambassador, who is 
one of my two deputies. And the planning that we do is done in 
very close coordination with the Department of State, both at 
my headquarters as well as main State here in Washington.
    Mr. Johnson. Thank you, sir.
    The Chairman. Thank the gentleman.
    The gentleman from Georgia, Dr. Gingrey.
    Dr. Gingrey. Chairman Skelton, thank you.
    In a way, I am going to continue on, really, the line of 
questioning from my friend from Georgia, Representative 
Johnson.
    I am going to direct most of my questions, though, to 
Admiral Stavridis.
    But General Ward, what you were just saying in response to 
Congressman Johnson is, I think, this interagency approach, 
soft power, combined, of course, with the traditional military 
command, that you so ably are tasked to do now with this Africa 
Command. I think we are all pleased with what we have heard 
from you and General Craddock as well in the European Command.
    Admiral Stavridis, in your written testimony to us, I'll 
make attention to page 35, where you describe pretty much what 
we were just talking about, an interagency approach in Southern 
Command, in Central Command, indeed, and Africa Command.
    The chairman was kind enough to create an ad hoc committee 
on roles and missions that Jim Cooper from Tennessee chaired 
and I was the ranking member, co-chair. And we are right now 
looking at that. And very possibly we are talking about a--
maybe this is an overstatement, but a Goldwater-Nichols two 
type approach to speak softly but of course, indeed, always 
carrying a big stick.
    So I am very pleased, Admiral, in regard to what you talk 
about in these three or four pages. In my five minutes I don't 
have time to go through that, but I really like that. I like 
that very much.
    I did want to go back to my colleague from California, Ms. 
Sanchez, who serves with me on WHINSEC board of visitors, as 
you know, the Western Hemisphere Institute for Security 
Cooperation. I think it is hugely important, and you described 
to her some of the things that are done. You called it, I 
think, that school at Ft. Benning, WHINSEC, a premiere volume 
opportunity for training 1,000 students at any one time. 
Eighteen to 25 different countries, mainly in the area of the 
Southern Command, 60 percent of our training opportunity with 
them for that region. Thirty-five percent of the curriculum 
based on human rights.
    You went on to say that WHINSEC is a powerful force, 
creating an indelible bond in the region.
    I want to ask you this specific question: if we lost that, 
and unfortunately 201 members of our House of Representatives 
voted to make WHINSEC go away last year, and I don't know how 
many maybe, one, have taken the opportunity, your invitation to 
come visit and see the good work that is being done down there 
and the great instruction.
    But if we lost that vote this year, who would fill that 
void? What would be the scenario, if we didn't have that, when 
we are looking at, we mentioned about Cuba not being a military 
threat, but, you know, Hugo Chavez and others. Elaborate on 
that for us a little bit, if you would.
    Admiral Stavridis. Again, there would be no quick way to 
reconstruct the capability for close, integrated cooperation 
with the many, many nations of this hemisphere who want 
serious, honorable human rights oriented, military-to-military 
connectivity, training and exercising together. There simply 
would be no way to rapidly reconstruct that.
    And I would argue that if our primary concern is in fact 
militaries in the region who are responsible members of their 
societies, who are subject to civilian rule, where admirals and 
generals come and testify before civilian politicians, the way 
we do so appropriately here in the United States. If that is 
our goal, then we should be very pleased with the kind of 
instruction that goes on at WHINSEC.
    And again, I can only reiterate my invitation, not only to 
Members of Congress, but to other concerned citizens who are 
interested in coming and spending a day at WHINSEC. We will 
accommodate that. I believe in showing people what is going on.
    People are concerned about things that happened decades 
ago. It is not an institution that we should be anything other 
than extraordinarily proud of today.
    Dr. Gingrey. Admiral, thank you.
    And in my concluding seconds, let me also thank General 
Craddock and General Ward. This committee has been honored to 
hear from you on a number of occasions and you do us proud. We 
thank you so very much for your service.
    The Chairman. Thank the gentleman.
    Ms. Shea-Porter, please.
    Ms. Shea-Porter. Thank you.
    And I would like to thank you for being here.
    I would like to state that I realize we need to be involved 
with the continent, with the countries of Africa, and that 
there is a role to play. But I am not comfortable with the role 
that we are choosing to play right now. And I would like to 
read, General Ward, something from your statement.
    It says, ``Building regional stability and security will 
take many years of sustained and dedicated effort. There is no 
conspicuous finish line. Therefore, enduring Congressional 
support is indispensable.''
    That sounds an awful lot like Iraq, you know, the same kind 
of logic, that it is going to take us many, many years to build 
stability and security. And I am not sure that we can play on 
different continents at the level that we have been, and to 
finance the way we have been financing, and clearly you are 
asking for financial support here. And as you go on read, you 
all see that you will.
    And I am looking at other areas of the world, and I am 
concerned. So I am going to ask you a series of questions 
because, as you know, we are limited in terms of money--time 
and money.
    First of all, you referred to our partners. Could you 
please name our partners in Africa who are----
    General Ward. There are nations in Africa that have very 
willingly asked that we assist them in increasing their 
capacity.
    Ms. Shea-Porter. Can you name them?
    General Ward. I can. Senegal, Ghana, South Africa, Liberia, 
Gabon, Burundi, Rwanda, Uganda, Morocco. There are many 
nations. There are security organizations. The African Union, 
the regional economic communities of the African Union, 
especially the Economic Community of West African States 
(ECOWAS), have all said, can you help us in increasing our 
capacity. And that is who I am referring to as I say partners.
    Ms. Shea-Porter. And they want us to actually have a 
physical presence?
    General Ward. They want us to be present with them as they 
are increasing their capacity. Yes, ma'am.
    Ms. Shea-Porter. Okay. Because last time, we said there was 
only one country that could be named publicly.
    General Ward. What I wouldn't put into that--that refers to 
a headquarters presence, different from the activities that we 
conduct with them.
    Ms. Shea-Porter. Are these countries that you just named 
wanting us to have a headquarters on the continent and would be 
willing to host us or have us in their particular nation?
    General Ward. Liberia has.
    Ms. Shea-Porter. Okay. So just one.
    All right. The other thing is, you mentioned terrorist 
threat. Do you have any idea how many al Qaeda are on the 
continent or in northern Africa right now? Do you have a guess 
that you could say? Is this a big problem or something that you 
are looking out?
    General Ward. It is a problem. General Craddock pointed to 
the flow of foreign fighters from North Africa that go from 
North Africa into the Middle East. The nations of North Africa, 
in addition to being concerned about that, are also concerned 
that these foreign fighters who flow into the Middle East and 
do whatever they do, those who survive that and then return to 
their home nations, them foment discontent within their nations 
as well.
    Ms. Shea-Porter. Are they al Qaeda?
    General Ward. They are al Qaeda.
    Ms. Shea-Porter. Do you have any idea how many?
    General Ward. I can't put a number on it. No, ma'am.
    Ms. Shea-Porter. Okay. Would you say small, large, you 
know----
    General Ward. It is a disturbing number. It is more than a 
few.
    Ms. Shea-Porter. One would be disturbing, obviously. I 
think we could agree on that.
    You mentioned that they want us to enable them to provide 
for their own security. Is that the same number of countries 
you named before? And what are they looking for? The last time 
we talked, it was that they were actually looking for some 
weapons as well as some advice.
    General Ward. It is not weapons, per se. It is 
professionalization of their military. It is causing them to be 
able to plan, conduct, and sustain things in a very legitimate 
way. As Admiral Stavridis pointed out, doing things in 
accordance with respect for human dignity, human rights, 
respect for the rule of law.
    It its those sorts of professionalization activities that 
they seek our assistance, so that they can become more 
professional in the conduct of their security operations.
    Ms. Shea-Porter. Okay. Well, my worry, again, is because 
there is a lot of instability there, and if we do provide 
weapons and they do have a conflict, that they will use the 
weapons that we have provided. Do you have some concern about 
that?
    General Ward. Congresswoman, the provision of weapons is 
not what we are talking about. We are talking about, quite 
frankly, sustaining a level of interaction that causes their 
professionalism to be such that those weapons will not be 
turned to use against their own populations. And that is where 
we seek to increase our active security with them.
    And that doesn't happen with--we run a risk of the 
situation that you just described being there when we aren't 
engaged with them on a sustained basis. This long-term point 
that I made is the fact that if we build our relations with 
them over time, sustain our contact, quite frankly, cause a way 
of doing business and ethos if you go to emerge that is less 
likely to lead to the situation that you just described.
    Ms. Shea-Porter. But we have seen that in other areas of 
the world, where when they have conflict it turns out they have 
U.S. weapons, and this is my concern, that if we don't succeed 
at the vision that you have of stabilizing it, that we all have 
that.
    And the last question is contractors. Any contractors 
involved?
    General Ward. Contractors are involved. Contractors are 
being under the auspices of the State Department, the ACOTA 
program that we have in place. But there are contractors 
involved.
    Ms. Shea-Porter. And you will be using them?
    General Ward. Not for those missions that we are 
responsible for. We seek to use through the request for forces 
process uniformed members to do the mission, to help us as we 
perform our security assistance.
    Ms. Shea-Porter. Thank you very much.
    The Chairman. Thank you.
    Mr. Lamborn is next on the list.
    Pardon me. Mr. Franks is next on the list.
    Thank you. Then Mr. Lamborn.
    Mr. Franks. Well, thank you, Mr. Chairman. My apologies to 
Mr. Lamborn here.
    I always want to thank the leadership of the U.S. military 
for their courage and for their sacrificial commitment to human 
freedom. None of what we have in America could be possible 
apart from your noble courage and commitment to those things, 
and I hope I never miss a moment when I get to address some of 
you to express that.
    With that said, General Craddock, on page 21 of your 
testimony you express the growing threat of ballistic missile. 
And, of course, this is something that I am extremely concerned 
about and agree with you completely.
    You indicate that Iran might deploy Intercontinental 
Ballistic Missiles (ICBMs) that can reach Europe and the U.S. 
as early as potentially 2015. And of course the President's 
budget asks for $241 million for the Missile Defense Agency 
(MDA) to conduct both the interceptor field and the expand 
radar site for the European site and a total of $720 million 
for the hardware and construction.
    Without asking you any question related to the budget 
itself, my question is would a delay in the deployment of this 
site put the onus on you to assume some increased risks, some 
increased level of risk to U.S. forces forward in our NATO 
allies?
    Let me make sure you hear the question right. I am saying, 
you know, we recognize the ballistic missile threat. We have 
got funds that the President has asked to put in place for 
that. If for whatever reason the deployment of this site is 
delayed, does that potentially increase the risks for some of 
the forward deployed forces and the United States, in your 
opinion?
    General Craddock. If the timelines as they are correlated 
for development of a ballistic missile capability from Iran is 
in any way accelerated, the answer would be a delay in 
placement of a third site would increase the risk.
    I don't know where they crossover, but indeed a delay, 
given what we project would in my judgment potentially increase 
the risk to our forces deployed.
    Mr. Franks. Obviously I think you are absolutely right, and 
I still quote from one of my colleagues here. I know that 
question gets the blooming obvious award. But I appreciate you 
being forthright about it.
    And so let me, if I could do something a little bit unusual 
and ask the chair, just in terms of what may happen if the 
Strategic Forces Subcommittee perhaps should mark up a portion 
of the National Defense Authorization, if there is a cut in the 
European site, much as there was last year, and as you know, 
Mr. Chairman, I tried to restore funding to ensure that General 
Craddock's area of AOR is sufficiently defended against 
ballistic missiles.
    If I offered an amendment to increase that funding after it 
had been cut in the Strategic Forces Committee, if I offered 
the amendment here, would that be considered advocating for an 
earmark?
    The Chairman. I don't know what the future earmark rules 
will be. I am waiting with great anticipation, as I know you 
are.
    That is a good question, though.
    Mr. Franks. I think it is a very important one, and I hate 
to redirect the focus here of the meeting, but some of us find 
it extremely important, because being totally aware of the 
earmark abuse, I understand all of that. But, you know, we 
don't want to be in the process of rewriting the Constitution 
here.
    Some of the challenges that you face are very, very real. 
And the Constitution of the United States says in Article 1 
Section 8, and Section 8 may be just a sad corollary there, I 
know that some of you know what Section 8 is in the manual, 
``The Congress shall have power to provide for the common 
defense and general welfare of the United States and to do this 
in part by raising and supporting armies and providing and 
maintaining a navy.''
    If we do exactly that in this committee by offering 
amendments that we think are important, and that is somehow 
tangled up in this whole earmark thing, and I may not have the 
opinion you think I do on earmarks, Mr. Chairman, I am not 
sure. But that is not the point. My fear is letting the 
constitutional duties of this committee and the Congress get 
tangled up in that. And if we are not careful and if we don't 
make very specific definitions of what an earmark is, we will 
be rewriting the Constitution.
    And so I am hoping the chairman will consider that, given 
the gravity of what we are dealing with in making sure that 
these folks have enough to defend us.
    The Chairman. Thank the gentleman for his advice.
    Mr. Franks. Thank you, gentlemen, for everything.
    The Chairman. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I appreciate you gentlemen being here.
    Admiral, I am curious, what is the status of negotiations 
with the Ecuadorian government as to our forward operating base 
in Manta? Have we been given a drop-dead departure date? Is it 
still under negotiations? What are the alternative sites you 
are looking at? That would be one thing.
    The second thing is, I fear one of the unintended 
consequences of the wars in Iraq and Afghanistan is that we 
have been ignoring our neighbors to the south. Prior to these 
conflicts, we have a very active--and even during the Bosnian 
conflict, we had a very active program of building one-room 
schoolhouses, water wells for people whose children were dying 
of contaminated water, and a lot of things to build goodwill in 
a region of the world where we had a lot of goodwill.
    I suspect that has been put on hold, and I would take it a 
step further. I would be curious, in your budget, how much of 
your budget goes toward paying the pilots of DynCorp to fly the 
eradication missions over Colombia at the same time when 
American troops are apparently providing security for President 
Karzai's brother, who is reported to be one of the largest drug 
dealers in Afghanistan, and whether in your conversations with 
the other commanders you don't find that inconsistent. Because 
I do, that on one hand we are spending hundreds of millions of 
dollars a year to DynCorp and others to eradicate drugs in 
Colombia, while we are apparently turning a blind eye to allies 
in Afghanistan who are up to their noses in the drug business? 
Wouldn't that money that we are spending on DynCorp to fly 
those eradication missions be better spent going back to our 
traditional approach of the one-room school house, water well 
and the medical clinics.
    Admiral Stavridis. Thank you for that question, sir.
    Let me catch up on Manta. The lease expires in late 2009. 
We have not at this time to my knowledge been formally asked to 
leave at the end of that lease, and the negotiation to attempt 
to stay, which we would like to stay, is being conducted by our 
ambassador with the government of Ecuador. She continues to 
work that.
    I would say that based on the public statements of the 
president of Ecuador, which have been clear, it seems unlikely 
to me that we will be permitted to extend that lease, despite 
the fact that I think it would be very desirable, both for 
Ecuador and for the United States and for the nations of the 
region.
    So we are looking at alternative sites in other friendly 
countries through the region, and I wouldn't want to get into 
specifics of that, but it is still a very open process, and we 
would be interested in----
    Mr. Taylor. Without you getting into specifics, could I 
make a request for the record that you supply to me or even 
better to the committee----
    Admiral Stavridis. Happy to.
    Mr. Taylor [continuing]. What sites you are looking at and 
the cost associated with those other sites to take the place 
should we lose Manta.
    Admiral Stavridis. I will be happy to do so, sir. Thank 
you.
    [The information referred to can be found in the Appendix 
on page 155.]
    On the second part of your question about DynCorp 
eradication flights, those fall under the State Department 
budget as part of the State Department Bureau of International 
Narcotics and Law Enforcement Affairs (INL) moneys.
    Mr. Taylor. To the best of your knowledge, what is the 
dollar amount associated with that?
    Admiral Stavridis. Sir, I would be guessing, and I would--
--
    Mr. Taylor. Can I ask that for the record?
    Admiral Stavridis. Yes, sir, you certainly can. And I will 
provide that.
    [The information referred to can be found in the Appendix 
on page 155.]
    Admiral Stavridis. And as to the Afghanistan piece, I don't 
really know anything about that aspect of it. Perhaps General 
Craddock does. I do not.
    General Craddock. Congressman, with regard to security for 
President Karzai's brother, I do not know that that is provided 
by NATO ISAF. If it is, within 24 hours I will direct it not 
be. I cannot speak for U.S. forces, because they belong to 
CENTCOM.
    Mr. Taylor. But, General, again, this is coming from people 
who live within Afghanistan. And when our ambassador to 
Afghanistan appeared before this committee and I posed that 
question to him, is the president's brother one of the biggest 
drug dealers in Afghanistan, he did not deny it. He had every 
opportunity to say it is not true.
    So again, doesn't that, considering that we have to the 
best of our knowledge at least three Americans in captivity in 
Colombia, captured on a counterdrug mission--am I the only 
person who finds this somewhat inconsistent, that we are 
spending a heck of a lot of money in Colombia, trying to 
eradicate drugs, and have taken what is at best a blind eye 
toward the drug problem in Afghanistan.
    General Craddock. Well, Congressman, I would, with all due 
respect, disagree about the blind eye. There is much activity. 
More is needed. The drugs in Afghanistan go to Europe. It is 
heroin. And the drugs in Colombia go to the United States.
    Mr. Taylor. With a straight face, General, and I have heard 
this said before, would you like to tell your NATO and my NATO 
allies that what goes on in Afghanistan is okay because the 
drugs go there?
    General Craddock. I didn't say that, Congressman.
    Mr. Taylor. No, sir, but you said the drugs go to Europe.
    General Craddock. That is a fact.
    Mr. Taylor. So does that make it okay?
    General Craddock. I didn't say that. It does not make it 
okay. That is why we are trying to stop it.
    Mr. Taylor. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Lamborn, now.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I am always happy to defer to Mr. Franks, happily so.
    I would like to ask you, Mr. Craddock, General Craddock, 
about some statements on page 21 of your report, just to follow 
up on what Representative Franks introduced a few minutes ago.
    You said there that the Iranians may have an 
intercontinental ballistic missile capability by 2015. Is there 
any plausible defensive reason they have for that kind of 
capability?
    General Craddock. Congressman, to my knowledge that is not 
a defensive weapon.
    Mr. Lamborn. Okay. And then my next question then is, even 
if it is true, as the recent National Intelligence Estimate 
(NIE) said, which I am skeptical about, that their nuclear 
weaponization is on hold, given the fact that they are still 
proceeding with nuclear enrichment 100 percent, as fast as they 
can, how difficult is it for them to take that capability and 
knowledge and progress and transfer that over to weaponization 
if they choose to do so in the future?
    General Craddock. Well, if the weaponization is on hold, it 
wouldn't be transferred. But if they decided to change the 
weaponization decision, and the enrichment continues and 
proceeds, then it would be easier rather than harder and take 
less time.
    But an intercontinental ballistic missile does not 
necessarily have to have a nuclear warhead. It can have a 
conventional, and it could still yield quite a destructive 
capability.
    Mr. Lamborn. Is there anything in the budget request that 
you think--and as was said earlier, there is about $720 million 
to put a radar antenna interceptors in Poland and 
Czechoslovakia, or Czech Republic. Could you elaborate on the 
risk we would have if we start cutting into that $720 million, 
as some may try to do because we know some tried to do that 
last year?
    General Craddock. Based on the assumption that there is a 
threat, if the development of the third site is delayed and the 
threat continues, based upon projections and the intelligence 
community, the risk would increase, because we would not have a 
site in place at a time when we would need it if there are 
delays in implementation.
    Mr. Lamborn. Are there any capabilities whose development 
and/or fielding you would like to see accelerated?
    General Craddock. I probably am not qualified to answer 
that because it is a technical question and the Missile Defense 
Agency still controls the program. I think the key here is that 
as a risk develops and becomes apparent, which influences our 
security, we would like to have a countermeasure in place in 
time.
    Mr. Lamborn. And then as I finish up here, in the same 
statement, on page 21, you talk about efforts to reach out to 
the Russians and explain and demonstrate and show them that 
these are defensive efforts. How is that effort going and is 
there anything more we can do along those lines?
    General Craddock. Over the last couple of years, Missile 
Defense Agency, along with EUCOM in military-to-military talks, 
has done that, we thought with some progress. But unfortunately 
the receptivity militarily has probably been stymied by the 
political developments.
    It is ongoing. We are hopeful that there might be a 
breakthrough to where there could be some accommodation and a 
realization that this is no threat to the strategic nuclear 
force of Russia.
    Mr. Lamborn. Thank you very much.
    The Chairman. Mr. Conaway, please.
    Mr. Conaway. Thank you, Mr. Chairman.
    Generals and Admiral, thank you all for being here this 
morning; or this afternoon, I guess.
    Admiral Stavridis, the Colombia Free Trade Agreement might 
not be intuitively be something we would think we would talk 
about this afternoon, but it is going to come up on the Hill, 
it may have already come up on the Hill. Can you talk to us 
about your view of its importance, either in passing or 
failing, would have on our impact and relations within 
Colombia?
    The Defense Minister Santos was here this week and is 
obviously keenly interested in this thing passing, both as a, 
kind of a pat on the back to Uribe and his colleagues who in my 
view have done a particularly good job of turning that 
circumstance around from a country headed to a narco-controlled 
failed state to one that has made great strides addressing some 
grievous issues that they have had.
    So would you mind spending a couple of minutes visiting 
about your perspective on the Colombia Free Trade Agreement?
    Admiral Stavridis. Sir, I'll be glad to.
    I think to have any conversation about Colombia, you need 
to go back 10 years and look at Colombia of 1997. And Colombia 
1997 as, as you just alluded to, sir, a country on the brink, 
really on the edge of the abyss of falling into narcoterrorism.
    In the 10 years since then, with a relatively modest level 
of U.S. assistance, the Colombians have reduced murders in 
their country 80 percent, have reduced kidnapping 70 percent, 
have reduced killing of trade unionists, very important 
statistic, 80 percent. Their economy has grown every year by an 
additional 1 percent and this year will hit 7 percent.
    President Uribe, the leader, enjoys an 84 percent 
popularity rate. The FARC has been reduced from 18,000 members 
to 9,000 members. Thirty thousand rightwing militants have been 
demobilized.
    By every objective measure, there has been enormous 
progress in Colombia. Are there still problems in Colombia 
surrounding human rights? Yes. However, the Colombians are 
dealing with them with extraordinary forthrightness. And I 
believe that when you look at that span of improvement, you 
look at a nation that has stood with the United States in a 
wide variety of circumstances, and you look at the 
countervailing forces in the region who are watching this 
debate very closely, I will tell you from a national security 
perspective, and I would not begin to talk about the economics 
of the issue or the politics of the issue, but as your national 
security observer in that region, I will tell you that it is 
very important that the free trade agreement be passed, from a 
national security perspective.
    And I hear that not just from senior people in Colombia, 
but from my interlocutors throughout the region. They are 
watching closely to see what happens to a nation that stands 
with the United States for a decade or more.
    Mr. Conaway. Thank you.
    You may have already covered this in your opening 
testimony, and I apologize, but a couple of sentences on 
Chavez's bullying tactics earlier last week with moving troops, 
or purportedly moving troops, and Colombia's response.
    Admiral Stavridis. Sir, as I mentioned in my remarks, but I 
am happy to embellish slightly, the events of 10 days ago in 
which three nations were breaking diplomatic relations, in 
which troops were being moved toward borders, I am pleased to 
tell you that that situation has largely been resolved through 
the good efforts of the nations themselves. And I feel both the 
Colombians, the Ecuadorians and indeed the Venezuelans have 
walked back from a very tense situation.
    In terms of Venezuela, I am, as I mentioned in response to 
an earlier question, we are concerned about the level of arms 
purchases in Venezuela. Naturally, we are concerned about anti-
U.S. rhetoric that emanates from that government. It is 
unfortunate. The United States has historically enjoyed an 
excellent relationship with Venezuela. They are a strong 
trading partner. I would for one hope that we could work our 
way to a better relationship. But at the moment, it is a very 
difficult relationship. It is the only country in the 
hemisphere with the exception of Cuba with which we do not 
enjoy very good military-to-military relations at this time.
    Mr. Conaway. Thank you, General.
    I yield back.
    The Chairman. Thank the gentleman from Texas.
    General Craddock, you stated that the caveats have been 
impediments on our operations in Afghanistan. I think we have a 
classified list of the caveats or the limitations on the 
various NATO nations' troops, but would you be kind enough to 
give us an updated list of them as they now stand? They 
hopefully might have changed----
    General Craddock [continuing]. Could I provide that for the 
record?
    The Chairman. Is there anything that we could do, the 
United States could do, to demonstrate more leadership to urge 
the various nations that have those caveats, that have those 
limitations on what their troops may do? Is there anything more 
that we can do to urge them to eliminate those or to change 
those caveats or limitations? This is very bothersome to those 
of us on this committee.
    General Craddock. Thank you, Chairman.
    I will provide that updated list, the recent list that we 
have got, for the record, if I may.
    [The information referred to can be found in the Appendix 
on page 155.]
    General Craddock. With regard to what can we do, I think 
what has to happen is that we have to provide consequences of 
those caveats. The impacts of those caveats on day-to-day 
operations on the ground, in stark terms, not only to military 
leadership in the nations that hold those caveats, but also it 
has got to transition into the political arena.
    I think that many of you are on parliamentary committees 
with NATO parliamentarians, and that is an outreach 
opportunity. Whenever there are heads of state here at the 
Congress visiting, another opportunity to talk about it in a 
way that it makes the reality of the constraint real world. And 
what it means to the service members, the soldiers, the 
marines, the airmen, on the ground in Afghanistan in that it 
increases the risk to them every day in their operation because 
of these functional and geographical constraints known as 
caveats.
    The Chairman. So what can we do to better urge them to 
eliminate those caveats?
    General Craddock. Well, as I said, I think it is an 
engagement at every level and opportunity, whether it be 
counterpart here or another means.
    I think that there is a recognition by the chiefs of 
defense, the military leadership of the nations that have those 
caveats declared, that they understand the impacts. That needs 
to be relayed with a compelling, irrefutable argument into the 
political arena, because essentially those caveats are mandated 
from governments.
    So I think that is the key. There has to be increased 
emphasis and increased energy applied in that area.
    The Chairman. For the record, what countries within the 
NATO community do not have caveats or limitations on their 
troops in Afghanistan?
    General Craddock. I don't have, Chairman, the list in front 
of me. I can provide that for the record, but I don't have the 
list here. There are several, but I don't have them offhand.
    The Chairman. That would not be classified.
    General Craddock. Not to my knowledge, no.
    The Chairman. We would appreciate that very much.
    General Craddock. Certainly.
    [The information referred to can be found in the Appendix 
on page 155.]
    The Chairman. All right.
    Well, General Craddock, Admiral Stavridis and General Ward, 
thank you so much for----
    Mr. Taylor. Mr. Chairman? Congressman Cummings has asked 
that we have a question for the record, if I may, sir.
    The Chairman. Please proceed.
    Mr. Taylor. Generals, this is from Congressman Cummings, 
who is at another meeting.
    The question is, as you are aware, President Sarkozy 
addressed Congress in November. In his address, he stated that 
the European Union emerges from 10 years of discussions on its 
institutions. They will still have a stable presence, a more 
powerful high representative for foreign and security policy. 
With that development, President Sarkozy concluded that the 
European Union must have the proper construction of a military 
capacity. Specifically, he noted that there are--and I am 
quoting--``There are more crises than there are capacities to 
face them. NATO cannot be everywhere. The EU must be able to 
act, as it did in the Balkans or in the Congo, as it will in 
the future on the border of Sudan and Chad.''
    General Ward, General Craddock, what are your thoughts on 
this? Do you believe the development of the EU military could 
change the dynamics of NATO, the European Command or the 
development of AFRICOM?
    In addition, what should we expect to hear about the 
interactions between the European Union along with its 
associated military headquarters and defense acquisition agency 
and NATO as a result of the upcoming summit?
    If you are comfortable now, or if you would like to answer 
it for the record, whatever you prefer.
    General Craddock. That is a very comprehensive question. 
First of all, with regard to President Sarkozy's statement, I 
would not want to judge his statement, but I think the time is 
right now for there to be engagement to find opportunities to 
cooperate, not continuing to have the reality of competition 
between NATO and the European Union.
    NATO is essentially a military organization with a 
political component. The European Union is largely political, 
economic with a military component. We have to find the--if 
those are two circles, we have to find the overlap and then 
diagram where we can engage and leverage each other's 
capabilities to a greater extent, and I think that is where the 
effort must lie.
    It is not about dual-hatting formations. The fact is, NATO 
can't fulfill its requirements today with its formations. If 
those formations are dual-hatted with an EU hat, then we have 
compounded the problem. We are in competition. We can't have 
that.
    We need to look for, where capabilities exist that are 
complementary, as I said, not competing. That is I think where 
we must head for the future.
    General Ward. And just briefly, Congressman, as it pertains 
to AFRICOM, right now the formal procedure that would cause 
AFRICOM to work with the European Union does not exist. 
Obviously it is the U.S. European Command with NATO.
    But I will tell you, the nations of the European Command 
have expressed a willingness to work with AFRICOM in pursuit of 
common objectives on the continent of Africa, and we do that on 
a bilateral basis.
    Mr. Taylor. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Did either one of you wish to furnish Mr. Cummings' 
question further on the record?
    General Craddock. Yes. Chairman, I will follow up with 
probably a more comprehensive response.
    [The information referred to can be found in the Appendix 
on page 155.]
    The Chairman. We would appreciate that.
    If there are no further questions, we again appreciate you 
being with us, your testimony, and we look forward to seeing 
you again soon.
    [Whereupon, at 4:20 p.m., the committee was adjourned.]



=======================================================================


                            A P P E N D I X

                             March 13, 2008

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 13, 2008

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 45254.001
    
    [GRAPHIC] [TIFF OMITTED] 45254.002
    
    [GRAPHIC] [TIFF OMITTED] 45254.003
    
    [GRAPHIC] [TIFF OMITTED] 45254.004
    
    [GRAPHIC] [TIFF OMITTED] 45254.005
    
    [GRAPHIC] [TIFF OMITTED] 45254.006
    
    [GRAPHIC] [TIFF OMITTED] 45254.007
    
    [GRAPHIC] [TIFF OMITTED] 45254.008
    
    [GRAPHIC] [TIFF OMITTED] 45254.009
    
    [GRAPHIC] [TIFF OMITTED] 45254.010
    
    [GRAPHIC] [TIFF OMITTED] 45254.011
    
    [GRAPHIC] [TIFF OMITTED] 45254.012
    
    [GRAPHIC] [TIFF OMITTED] 45254.013
    
    [GRAPHIC] [TIFF OMITTED] 45254.014
    
    [GRAPHIC] [TIFF OMITTED] 45254.015
    
    [GRAPHIC] [TIFF OMITTED] 45254.016
    
    [GRAPHIC] [TIFF OMITTED] 45254.017
    
    [GRAPHIC] [TIFF OMITTED] 45254.018
    
    [GRAPHIC] [TIFF OMITTED] 45254.019
    
    [GRAPHIC] [TIFF OMITTED] 45254.020
    
    [GRAPHIC] [TIFF OMITTED] 45254.021
    
    [GRAPHIC] [TIFF OMITTED] 45254.022
    
    [GRAPHIC] [TIFF OMITTED] 45254.023
    
    [GRAPHIC] [TIFF OMITTED] 45254.024
    
    [GRAPHIC] [TIFF OMITTED] 45254.025
    
    [GRAPHIC] [TIFF OMITTED] 45254.026
    
    [GRAPHIC] [TIFF OMITTED] 45254.027
    
    [GRAPHIC] [TIFF OMITTED] 45254.028
    
    [GRAPHIC] [TIFF OMITTED] 45254.029
    
    [GRAPHIC] [TIFF OMITTED] 45254.030
    
    [GRAPHIC] [TIFF OMITTED] 45254.031
    
    [GRAPHIC] [TIFF OMITTED] 45254.032
    
    [GRAPHIC] [TIFF OMITTED] 45254.033
    
    [GRAPHIC] [TIFF OMITTED] 45254.034
    
    [GRAPHIC] [TIFF OMITTED] 45254.035
    
    [GRAPHIC] [TIFF OMITTED] 45254.036
    
    [GRAPHIC] [TIFF OMITTED] 45254.037
    
    [GRAPHIC] [TIFF OMITTED] 45254.038
    
    [GRAPHIC] [TIFF OMITTED] 45254.039
    
    [GRAPHIC] [TIFF OMITTED] 45254.040
    
    [GRAPHIC] [TIFF OMITTED] 45254.041
    
    [GRAPHIC] [TIFF OMITTED] 45254.042
    
    [GRAPHIC] [TIFF OMITTED] 45254.043
    
    [GRAPHIC] [TIFF OMITTED] 45254.044
    
    [GRAPHIC] [TIFF OMITTED] 45254.045
    
    [GRAPHIC] [TIFF OMITTED] 45254.046
    
    [GRAPHIC] [TIFF OMITTED] 45254.047
    
    [GRAPHIC] [TIFF OMITTED] 45254.048
    
    [GRAPHIC] [TIFF OMITTED] 45254.049
    
    [GRAPHIC] [TIFF OMITTED] 45254.050
    
    [GRAPHIC] [TIFF OMITTED] 45254.051
    
    [GRAPHIC] [TIFF OMITTED] 45254.052
    
    [GRAPHIC] [TIFF OMITTED] 45254.053
    
    [GRAPHIC] [TIFF OMITTED] 45254.054
    
    [GRAPHIC] [TIFF OMITTED] 45254.055
    
    [GRAPHIC] [TIFF OMITTED] 45254.056
    
    [GRAPHIC] [TIFF OMITTED] 45254.057
    
    [GRAPHIC] [TIFF OMITTED] 45254.058
    
    [GRAPHIC] [TIFF OMITTED] 45254.059
    
    [GRAPHIC] [TIFF OMITTED] 45254.060
    
    [GRAPHIC] [TIFF OMITTED] 45254.061
    
    [GRAPHIC] [TIFF OMITTED] 45254.062
    
    [GRAPHIC] [TIFF OMITTED] 45254.063
    
    [GRAPHIC] [TIFF OMITTED] 45254.064
    
    [GRAPHIC] [TIFF OMITTED] 45254.065
    
    [GRAPHIC] [TIFF OMITTED] 45254.066
    
    [GRAPHIC] [TIFF OMITTED] 45254.067
    
    [GRAPHIC] [TIFF OMITTED] 45254.068
    
    [GRAPHIC] [TIFF OMITTED] 45254.069
    
    [GRAPHIC] [TIFF OMITTED] 45254.070
    
    [GRAPHIC] [TIFF OMITTED] 45254.071
    
    [GRAPHIC] [TIFF OMITTED] 45254.072
    
    [GRAPHIC] [TIFF OMITTED] 45254.073
    
    [GRAPHIC] [TIFF OMITTED] 45254.074
    
    [GRAPHIC] [TIFF OMITTED] 45254.075
    
    [GRAPHIC] [TIFF OMITTED] 45254.076
    
    [GRAPHIC] [TIFF OMITTED] 45254.077
    
    [GRAPHIC] [TIFF OMITTED] 45254.078
    
    [GRAPHIC] [TIFF OMITTED] 45254.079
    
    [GRAPHIC] [TIFF OMITTED] 45254.080
    
    [GRAPHIC] [TIFF OMITTED] 45254.081
    
    [GRAPHIC] [TIFF OMITTED] 45254.082
    
    [GRAPHIC] [TIFF OMITTED] 45254.083
    
    [GRAPHIC] [TIFF OMITTED] 45254.084
    
    [GRAPHIC] [TIFF OMITTED] 45254.085
    
    [GRAPHIC] [TIFF OMITTED] 45254.086
    
    [GRAPHIC] [TIFF OMITTED] 45254.087
    
    [GRAPHIC] [TIFF OMITTED] 45254.088
    
    [GRAPHIC] [TIFF OMITTED] 45254.089
    
    [GRAPHIC] [TIFF OMITTED] 45254.090
    
    [GRAPHIC] [TIFF OMITTED] 45254.091
    
    [GRAPHIC] [TIFF OMITTED] 45254.092
    
    [GRAPHIC] [TIFF OMITTED] 45254.093
    
    [GRAPHIC] [TIFF OMITTED] 45254.094
    
    [GRAPHIC] [TIFF OMITTED] 45254.095
    
    [GRAPHIC] [TIFF OMITTED] 45254.096
    
    [GRAPHIC] [TIFF OMITTED] 45254.097
    
    [GRAPHIC] [TIFF OMITTED] 45254.098
    
    [GRAPHIC] [TIFF OMITTED] 45254.099
    
    [GRAPHIC] [TIFF OMITTED] 45254.100
    
    [GRAPHIC] [TIFF OMITTED] 45254.101
    
    [GRAPHIC] [TIFF OMITTED] 45254.102
    
    [GRAPHIC] [TIFF OMITTED] 45254.103
    
    [GRAPHIC] [TIFF OMITTED] 45254.104
    
    [GRAPHIC] [TIFF OMITTED] 45254.105
    
    [GRAPHIC] [TIFF OMITTED] 45254.106
    
    [GRAPHIC] [TIFF OMITTED] 45254.107
    
    [GRAPHIC] [TIFF OMITTED] 45254.108
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 13, 2008

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MR. SKELTON

    General Craddock. [The information referred to is classified and 
retained in the committee files.] [See pages 37 and 38.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TAYLOR
    Admiral Stavridis. [The information referred to is classified and 
retained in the committee files.] [See pages 33 and 34.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CUMMINGS
    General Craddock. Development of robust EU Security capabilities 
would be a welcome and positive contribution to the Trans-Atlantic 
community. The EU will not replace NATO and NATO will not replace the 
EU. It is in our national interest to encourage our European Allies to 
strengthen and build the complimentary Security Defense capacities of 
the European Union to share in the risk and responsibility for 
protecting and advancing our common interests and freedom. The EU 
brings development aid, human rights standards, anti-corruption 
programs, police trainers, election monitors, and most importantly, the 
capacity to put these capabilities together in the right combination 
for the task at hand--especially financial resources--when working 
together, NATO and the EU can combine the best of both organizations 
for a truly comprehensive and complimentary approach to our shared 
security and defense challenges. We will, in any case, continue to 
pursue bilateral engagement with NATO allies and EU member states, 21 
of whom are members of both NATO and the EU, in order to continue to 
develop and to coordinate our approaches in both forums. European 
Command and Africa Command both play a key role in our bilateral 
engagement. This will not change. In the end, NATO and the EU are tools 
of their memberships. Both bring potentially complementary and mutually 
reinforcing comparative advantages. Our combatant commanders play an 
important role in harmonizing the actions of all our international 
partners and in focusing them on the tasks at hand. As for the EU's 
development of a military headquarters and an acquisition agency, they 
are not quite there and so on these two aspects, the EU Military Staff 
and the European Defense Agency; I would not expect to hear anything 
about them in the upcoming summit. [See page 39.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 13, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MRS. BOYDA

    Mrs. Boyda. Admiral Stavridis, SOUTHCOM's 10-year usage rights for 
Ecuador's Manta air base expires in November 2009, they can expect to 
be evicted in favor of China based company named Hutchison Port Holding 
(HPH). HPH is the world's leading port developer and operator as well 
as an industry leader in the application of technologies to strengthen 
the entire transportation and logistics chain. It mentioned that the 
Manta base is not geopolitically important for US national security, 
but SOUTHCOM currently uses it to combat illegal cocaine trade in the 
``source zone'' of Colombia, Peru and Bolivia. The Air base also shares 
a common runway with the International Airport and currently houses 475 
US Military Personnel. What operational impacts does this have on your 
organization? Is there a plan to perform the same functions in another 
South American country? Is so, where? If not, why not?
    Admiral Stavridis. [The information referred to is classified and 
retained in the committee files.]

                                  <all>

</pre></body></html>
